<html>
<title> - TIANANMEN AT 30: EXAMINING THE EVOLUTION OF REPRESSION IN CHINA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    TIANANMEN AT 30: EXAMINING THE EVOLUTION 
                             OF REPRESSION IN CHINA
=======================================================================

                              JOINT HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                                AND THE

                   TOM LANTOS HUMAN RIGHTS COMMISSION

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2019

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


              Available at www.cecc.gov or www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-155 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



 House                                    Senate

JAMES P. McGOVERN, Massachusetts,    MARCO RUBIO, Florida, Cochair
Chair                                JAMES LANKFORD, Oklahoma
MARCY KAPTUR, Ohio                   TOM COTTON, Arkansas
THOMAS SUOZZI, New York              STEVE DAINES, Montana
TOM MALINOWSKI, New Jersey           TODD YOUNG, Indiana
BEN McADAMS, Utah                    DIANNE FEINSTEIN, California
CHRIS SMITH, New Jersey              JEFF MERKLEY, Oregon
BRIAN MAST, Florida                  GARY PETERS, Michigan
VICKY HARTZLER, Missouri             ANGUS KING, Maine


                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                    Jonathan Stivers, Staff Director

                  Peter Mattis, Deputy Staff Director

                   TOM LANTOS HUMAN RIGHTS COMMISSION

JAMES P. McGOVERN, Massachusetts,    CHRISTOPHER SMITH, New Jersey, 
Cochair                              Cochair
ROBERT B. ADERHOLT, Alabama          TED LIEU, California
GUS M. BILIRAKIS, Florida*           ZOE LOFGREN, California
EARL BLUMENAUER, Oregon              ALAN S. LOWENTHAL, California*
SUZANNE BONAMICI, Oregon             NITA M. LOWEY, New York
DAVID N. CICILLINE, Rhode Island     STEPHEN F. LYNCH, Massachusetts
KATHERINE CLARK, Massachusetts       BETTY McCOLLUM, Minnesota
STEVE COHEN, Tennessee               SETH MOULTON, Massachusetts
JIM COSTA, California                GRACE F. NAPOLITANO, California
PETER A. DeFAZIO, Oregon             ELEANOR HOLMES NORTON, District of 
LLOYD DOGGETT, Texas                 Columbia
ELIOT L. ENGEL, New York             ILHAN OMAR, Minnesota
ANNA G. ESHOO, California            CHRIS PAPPAS, New Hampshire
RAUL M. GRIJALVA, Arizona            BILL PASCRELL, New Jersey
DEBRA HAALAND, New Mexico*           DONALD M. PAYNE, Jr., New Jersey
ANDY HARRIS, Maryland*               DEAN PHILLIPS, Minnesota
DENNY HECK, Washington               CHELLIE PINGREE, Maine
SHEILA JACKSON LEE, Texas            MARK POCAN, Wisconsin
PRAMILA JAYAPAL, Washington          JAMIE RASKIN, Maryland*
HENRY C. ``HANK'' JOHNSON, Jr.,      KATHY McMORRIS RODGERS, 
Georgia                              Washington*
MARCY KAPTUR, Ohio                   HARLEY ROUDA, California
RO KHANNA, California                JANICE D. SCHAKOWSKY, Illinois
DEREK KILMER, Washington             ADAM SMITH, Washington
RON KIND, Wisconsin                  JACKIE SPEIER, California
PETER T. KING, New York              NORMA J. TORRES, California*
DARIN LaHOOD, Illinois*              NYDIA M. VELAZQUEZ, New York
DOUG LAMBORN, Colorado               ANN WAGNER, Missouri
JAMES R. LANGEVIN, Rhode Island      MAXINE WATERS, California
BARBARA LEE, California              PETER WELCH, Vermont
ANDY LEVIN, Michigan                 JOE WILSON, South Carolina

                          *Executive Committee

              Kimberly Stanton,  Democratic Staff Director

                Piero Tozzi,  Republican Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. James P. McGovern, a U.S. 
  Representative from Massachusetts; Chair, Congressional-
  Executive Commission on China..................................     1
Statement of Hon. Nancy Pelosi, Speaker of the House.............     2
Statement of Hon. Marco Rubio, a U.S. Senator from Florida; 
  Cochair, Congressional-Executive Commission on China...........     6
Statement of Hon. Eliot Engel, a U.S. Representative from New 
  York; Chairman, House Foreign Affairs Committee................    10
Statement of Hon. Chris Smith, a U.S. Representative from New 
  Jersey; Cochair, Tom Lantos Human Rights Commission............    12
Kaixi, Wu'er, 1989 Tiananmen student leader, political 
  commentator, and founder of Friends of Liu Xiaobo..............    14
Fengsuo, Zhou, 1989 Tiananmen student leader and President, 
  Humanitarian China.............................................    17
Tsui, Mi Ling, Communications Director, Human Rights in China....    18
Minzner, Carl, Professor of Law, Fordham Law School..............    21
Kalathil, Shanthi, Senior Director, International Forum for 
  Democratic Studies, National Endowment for Democracy...........    23

                                APPENDIX
                          Prepared Statements

Wu'er Kaixi......................................................    48
Zhou Fengsuo.....................................................    51
Mi Ling Tsui.....................................................    54
Carl Minzner.....................................................    75
Shanthi Kalathil.................................................    77

McGovern, Hon. James P...........................................    80
Rubio, Hon. Marco................................................    81
Smith, Hon. Chris................................................    83

                       Submissions for the Record

Nobel Lecture in absentia of Liu Xiaobo, Dec. 10, 2010, ``I Have 
  No Enemies: My Final Statement,'' submitted by Representative 
  Chris Smith....................................................    85
CECC ``Truth in Testimony'' Disclosure Statement.................    88
Witness Biographies..............................................    89

                                 (iii)

 
    TIANANMEN AT 30: EXAMINING THE EVOLUTION OF REPRESSION IN CHINA

                              ----------                              


                         TUESDAY, JUNE 4, 2019

        Congressional-Executive Commission on China
                and the Tom Lantos Human Rights Commission,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:08 
a.m., in room 2172, Rayburn House Office Building, 
Representative James P. McGovern, Chair, presiding.
    Also present: Senators Rubio and Daines, and 
Representatives Engel, Smith, Suozzi, Mast, Sires, Wagner, 
Johnson, Perry, Jackson Lee, Yoho, McCaul, Chabot, and 
Burchett.

      OPENING STATEMENT OF HON. JAMES P. McGOVERN, A U.S. 
  REPRESENTATIVE FROM MASSACHUSETTS AND CHAIR, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Good morning and welcome to a joint hearing of the 
Congressional-Executive Commission on China and the Tom Lantos 
Human Rights Commission, hosted by the House Foreign Affairs 
Committee. I want to thank my cochair, Senator Marco Rubio, of 
the China Commission, and Congressman Chris Smith, my cochair 
on the Tom Lantos Human Rights Commission. I would also like to 
thank Chairman Eliot Engel, Ranking Member Michael McCaul, and 
all the members of the Foreign Affairs Committee for hosting 
and participating in this important hearing.
    The title of today's hearing is ``Tiananmen at 30: 
Examining the Evolution of Repression in China.'' The hearing 
will review the events in China in 1989, the aspirations of the 
Tiananmen Square generation, and the ongoing censorship and 
lack of accountability for those seeking answers about the 
victims of the massacre.
    For our first panel, we are proud to welcome the Speaker of 
the House of Representatives, Nancy Pelosi.
    In 1989, just two weeks after the Tiananmen Square 
massacre, Nancy Pelosi--then in her second term in Congress--
introduced legislation to protect Chinese students and 
nationals who feared being deported back to China.
    The eventual Chinese Student Protection Act passed into law 
and ultimately granted legal permanent resident status to 
approximately 53,000 Chinese nationals, thereby boosting our 
economy and contributing to the wonderful diversity of our 
country. Two beneficiaries of this legislation were Yuxian Jin 
and Li Shen. Yuxian was a researcher in a genetics lab. Li was 
a student in accounting. Their son, Peter, is now a police 
officer in Salt Lake City. And we are proud that their daughter 
Sophie Jin serves her country on the China Commission staff.
    The legislation that welcomed Sophie and her family into 
our country is the best of what America has to offer. I want to 
thank Speaker Pelosi for that.
    In 1991, in Tiananmen Square, under the glare of the 
security cameras and in the spotlight of Chinese police, Nancy 
Pelosi unfurled a banner that read ``To those who died for 
democracy in China.'' To this day, that act of compassion is 
often mentioned by Chinese dissidents, some of whom heard about 
it when they were in prison.
    Back in Congress, Pelosi was organizing. She founded and 
chaired the bipartisan Congressional Working Group on China 
with Congressman Frank Wolf. She spearheaded the effort to 
condition China's most-favored-nation trade status on progress 
on releasing pro-democracy demonstrators. And throughout the 
1990s, Nancy Pelosi took on both Republican and Democratic 
presidents.
    When Permanent Normal Trade Relations (PNTR) for China was 
considered, Pelosi led the opposition, stating that PNTR should 
only be granted after, not before, the Chinese government 
implemented its trade commitments. If only the Congress 
followed her lead on that vote.
    Throughout her 30 years of advocacy for the people of China 
and Tibet, she has fought for the release of countless 
political prisoners, and any Chinese government official who 
meets with her, especially Chinese presidents, can expect to 
receive a letter with political prisoners that should be 
released.
    Pelosi sponsored legislation to award the Congressional 
Gold Medal to the Dalai Lama. She represented the U.S. at the 
Nobel Peace Prize ceremony for Chinese democracy leader Liu 
Xiaobo. She led the way to provide U.S. assistance for Tibetan 
refugees and pushed back against World Bank projects that 
harmed the environment and the people of China and Tibet.
    I was proud to join the Pelosi-led congressional 
delegations to India, Hong Kong, China, and Tibet, to support 
human rights. We're proud to have Speaker Pelosi here today to 
share her thoughts and expertise on the Tiananmen Square 
massacre, human rights in China and Tibet, and the role of 
Congress.
    We welcome you, Madam Speaker, and the floor is yours.
    [The prepared statement of Representative McGovern appears 
in the Appendix.]

                STATEMENT OF HON. NANCY PELOSI,
                      SPEAKER OF THE HOUSE

     Thank you very much, Mr. Chairman. As you know, it is 
unusual for the Speaker of the House to testify before a 
committee. This is more than a committee. It is a committee, a 
commission, so many things.
    Thank you for your leadership as chair of the Lantos 
Commission, as well as your role with the China Commission. And 
thank you, Cochairman Rubio, for your extraordinary leadership, 
as well as Chairman Smith, whom I have worked with for decades 
on this issue. Thank you, Chairman Engel, for your leadership 
on the Foreign Affairs Committee. And to all of you, thank you 
for being here this morning. I accept the kind remarks and 
overly generous introduction that you gave me. On behalf of our 
many colleagues, anything you said I did, we did in a 
bipartisan way, including unfurling that banner in Tiananmen 
Square. And all of the legislation to protect the Chinese 
students on issues that related to trade and human rights in 
China, in a bipartisan way. Right, Mr. Smith? All along the 
way.
    I want to acknowledge that while we were in Tiananmen 
Square unfurling a banner for which we were chased by the 
People's Liberation Army--it was just a question of who could 
run faster--Mr. Levin was actually in Tiananmen Square at the 
time of the massacre. Thank you for the beautiful testimony and 
the photos that you have of that occasion--which was an assault 
on humanity, in my view.
    So I thank you all for focusing on this special 
anniversary. Sitting here with Wu'er Kaixi, when we had our 
first hearing after Tiananmen Square, our very first hearing, 
Wu'er Kaixi was our first guest. Remember that? And now here we 
are 30 years later. It was so courageous all these years, but 
so courageous then. Thank you, Wu'er, for being here.
    Again, as a founding member of the CECC and Speaker of the 
House and as an American, I'm honored to speak at this hearing, 
``Tiananmen at 30: Examining the Evolution of Repression in 
China.'' Today we remember the brutal massacre that the Chinese 
government committed against its own people 30 years ago. We 
remember the courage of the students, workers, and citizens who 
peacefully defied an oppressive regime to demand the liberties 
and human rights that they deserved. We all remember that they 
raised the Goddess of Democracy in the image of our own Statue 
of Liberty, how they quoted our founders, how the tanks and 
troops crushed their protest but could not extinguish the flame 
of freedom burning in their hearts.
    Thirty years later one of the enduring images of the 20th 
century remains seared into our shared conscience, a lone man 
standing in the street bringing a line of tanks to a grinding 
halt. I was sad to learn years later--going back to China--that 
most students in the universities and the rest have no idea of 
that image. When they're asked what they think it stands for, 
they say, Was it an ad for something? Is it an ad for a drink, 
a soda or something like that? The Chinese have totally 
suppressed what happened at Tiananmen Square as well as the 
lone man standing before the tank, revered in the whole world, 
but unknown to young people in China.
    Earlier this year, the mothers--God bless them--who lost 
loved ones in the Tiananmen massacre, wrote to Chinese leaders, 
and this is what the moms said. They said, ``During the Great 
Famine of the 1950s and 60s in which tens of millions of our 
compatriots starved to death, the former Chinese President Liu 
Shaoqi warned Mao Zedong, `People are eating people--it will be 
written in the books.' '' That's what the moms said in this 
letter, this current letter. ``Considering this,'' they said, 
``we can't help but wonder: Wouldn't the People's Liberation 
Army's mass killing of innocent people in full public view also 
be recorded in history in the end?''
    Today, and on all days, we assure these mothers that we 
remember and that the heroism of their children will continue 
to be written in the official history of the United States 
Congress. We must remember because China still tries to deny 
history. As the writer Lu Xun wrote, ``Lies written in ink 
cannot disguise facts written in blood.''
    I remember June 4th vividly; the horrors of the massacre 
and the heroism of the massacred that remain with me, with many 
of us, until today.
    On June 21st, just over two weeks after the Tiananmen 
Square massacre, in a bipartisan way we introduced the 
Emergency Chinese Immigration Relief Act of 1989 to help 
Chinese students facing persecution stay in America, followed 
by the Chinese Student Protection Act of 1992, again in a 
bipartisan way. This was important because the Chinese were 
filming all the demonstrations in the United States so that 
they would be able to punish the students who participated, not 
in China, but here in the United States, reaching their hand 
into deterring free expression in the United States of America.
    Two years after the Tiananmen massacre, as you indicated, 
Democrats and Republicans stood in Tiananmen Square and 
unfurled a black and white banner reading ``To Those Who Died 
for Democracy in China.'' And then we got chased by the 
People's Liberation Army.
    What was interesting about it, you might want to know, is 
that when we were there and the people saw Americans there, and 
a lot of what looked like tourists were being friendly and 
smiling and this or that, but when we took out the banner, all 
those friendly tourists had walkie-talkies and they were 
calling the police. So they were police themselves, calling the 
People's Liberation Army. They came out of the building. We 
could see the troops coming; we took off. And they did manage 
to assault some of our Members, take the film from 
photographers and the rest. But nonetheless, the statement was 
made. And every year since, we have argued, in a bipartisan 
way, that America and the world cannot afford to promote a 
morally bankrupt policy toward China. Sadly, 30 years after 
Tiananmen, we see that China has changed, but its record of 
repression has not.
    From the unabated abuse and repression that the Uyghurs 
face at the hands of the Chinese government, to the plight of 
the people of Hong Kong where the Chinese-controlled Council 
pushes an extradition bill that makes a mockery of the ``one 
country, two systems'' pledge and would put 85,000 U.S. 
citizens at risk, to the decades-long abuse faced by the 
Tibetan people whose religion, culture, and language the 
Chinese government is brutally trying to erase, and to prison 
cells on the mainland where journalists, human rights lawyers, 
democracy activists, and Christians are denied dignity, 
justice, and their rights.
    If we do not speak out for human rights in China because of 
economic concerns, we lose all moral authority to talk about 
human rights in any other place in the world. Human rights and 
trade are inextricably linked. That is why in 1993 we worked 
together on the U.S.-China Act to tie any extension of China's 
trade status to improvements in human rights by the Chinese 
government. In 1994, we urged our colleagues in Congress to 
limit most-favored-nation status on products made by the 
People's Liberation Army, the very perpetrators of the massacre 
in Tiananmen Square. In 1999, we warned that the Chinese 
government had signed agreements on trade, on proliferation, on 
human rights, but had not honored them. And in 2000, we all 
worked together to fight efforts to give China a blank check 
while China gave the U.S. a rubber check by failing to comply 
with its market commitments under the World Trade Organization. 
As I said then, the U.S.-China bilateral WTO agreement is 
seriously deficient in substance, implementation, and 
enforcement. This issue is too important for our economy to be 
based on a pattern of broken promises, not proven performance. 
Today let us recognize that the greatest tribute Congress can 
make to the fallen freedom fighters of Tiananmen is to use our 
influence to advance the democratic aspirations of that 
generation.
    Mr. Chairman, Mr. Chairman, Mr. Chairman--so many chairmen 
here--they say that if you're in prison, one of the most 
excruciating forms of punishment that can be exacted upon you 
is to say that nobody remembers you; they don't remember why 
you're here, or that you are here, in prison. And we want to be 
sure that those prisoners know--and we do believe that the 
message gets to them--that they are not forgotten; that in the 
Congress of the United States, important leaders such as all of 
you gathered here are saying their names, giving letters to the 
authorities in China, recognizing their sacrifice, which is a 
sacrifice not just for them personally but a sacrifice for 
democracy throughout the world.
    In 2012, Congress made clear that trade and human rights 
are firmly linked, passing Chairman McGovern's Magnitsky Rule 
of Law Accountability Act as part of the Russia PNTR. In 2017, 
we built on that progress by making the Magnitsky Act global. 
Thank you, Mr. Chairman, for that, and thank all of you who 
participated in that.
    Last year we passed the bipartisan Tibet Reciprocity Act, 
also led by Chairman McGovern, to hold China accountable for 
its repression of the Tibetan people. As we work on trade 
agreements today, we continue to insist that any policy be tied 
to human rights. America must demonstrate the moral courage to 
use our leverage to not only guarantee fair trade for our 
products in Chinese markets but also to advance human rights in 
China. Let me repeat: We cannot allow economic interests with 
China to blind us to the moral injustices committed by China.
    I asked on the House floor 20 years ago during the PNTR 
debate, what does it profit a country if it gains the whole 
world and suffers the loss of its soul? Just over 10 years ago, 
Liu Xiaobo, the world's great champion of human rights, whose 
death was an affront to the very idea of human dignity--penned 
Charter 08. In that text he asked, ``Where is China headed in 
the 21st century. Will it continue its modernization under 
authoritarian rule, or will it embrace universal human rights, 
join the mainstream of civilized nations, and build a 
democratic system?''
    Mr. Smith and I and others were honored to represent Liu 
Xiaobo when he received the Nobel Peace Prize in Norway. Of 
course, the Chinese would not let him out of the country. The 
prize was given to an empty chair, but we were honored to be 
part of the delegation to show our support and our concern.
    As we examine the evolution of repression today, let us 
continue to work to achieve Liu Xiaobo's dream and the dream of 
the Tiananmen protesters, a future of freedom for all.
    Thank you all for the opportunity to testify today. I thank 
each and every one of you for your leadership and your 
commitment to human rights and to advancing freedom in China. 
That, of course, includes Tibet and Hong Kong, Beijing, the 
Uyghurs, and the rest. So much repression is taking place. I 
think we are going in the opposite direction. It is important 
for the world to know, 30 years later, that we haven't 
forgotten what happened then and that we know what is happening 
now. And that this will have an impact on our relationship with 
China.
    I thank you all for your leadership and for the opportunity 
to share some thoughts with you today. Thank you so much.
    [Applause.]
    Chair McGovern. Well, thank you very much, Madam Speaker. 
On behalf of all of us here, we are grateful to you. I just 
want to point out to you that, as we are speaking right now, 
someone just gave me a picture of a candlelight vigil in 
Victoria Square in Hong Kong where tens of thousands of people 
are holding a candlelight vigil in honor of those who lost 
their lives in Tiananmen Square and other uprisings all around 
China. This is happening as we speak. So thank you very much. I 
know you have a very busy schedule.
    I will yield to Senator Rubio.
    Cochair Rubio. Thank you. And thank you, Madam Speaker, for 
being here on this important day. Thank you to the Chairman for 
convening this important commission hearing on the 30th 
anniversary.
    Speaker Pelosi. Let me just thank you for showing that 
picture of what's happening in Hong Kong because that's the 
only place in China where people are able to speak out. It's a 
beautiful sight to behold and I commend the courage of the 
people there for speaking out, in light of China's actions in 
Hong Kong these days. And I thank you again, Mr. Chairman, Mr. 
Chairman, Mr. Chairman.
    Chair McGovern. Thank you very much. I am happy to yield to 
our Cochair, Senator Rubio.
    Cochair Rubio. Thank you again.

STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM FLORIDA AND 
      COCHAIR, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    I want to begin by welcoming our witnesses. I look forward 
to their testimony, their firsthand recollections of this 
watershed event of 1989, and the policy recommendations that 
you have for Congress that we should consider.
    I think today's anniversary will remind us that the 
fundamental human yearning for dignity and human rights and 
basic rights is not limited to any one region or limited to one 
country or limited to one culture. These aspirations have 
transcended geography and culture throughout the history of 
man.
    Today we honor the lives that were irrevocably altered by 
the events of that day; those who perished, those who were 
imprisoned and tortured, those who lost mothers, fathers, sons 
and daughters and those whose loved ones remain missing and 
unaccounted for.
    Tiananmen must not be viewed exclusively through the lens 
of history. Rather, today we must also reckon with the ongoing 
systematic human rights abuses committed by the Chinese 
Communist Party and the Chinese government against their own 
people. And we must reckon with the emerging and new 
geopolitical competition between tyranny and liberty, between 
democracy and totalitarianism.
    To reflect briefly on the events that led up to that 
fateful day in the spring of 1989, thousands of students 
gathered at the center of Beijing to mourn the death of a 
prominent reformer within the Communist Party who wanted to 
move China toward a more open and democratic political system. 
And in the days that followed, thousands would gather in 
Tiananmen Square to call for greater freedom and political 
reform and to protest the repressive policies.
    Their numbers grew as the days passed, not only in Beijing 
but also in 400 cities and universities across the nation until 
more than 1 million people--that included journalists and 
workers, government employees and police--joined the students 
and echoed their demands. And then late in the evening of the 
3rd of June and into the 4th, China's People's Liberation Army, 
acting on the orders of the Chinese Communist Party, responded 
with brute force and lethal violence, opening fire on peaceful 
demonstrators.
    To this day, the precise number of resulting casualties is 
unknown. There has been no public accounting of the events of 
that week, and there has been, of course, no justice for the 
victims. Rather, those that seek to commemorate the event or 
seek information about those killed, like the Tiananmen 
Mothers, are harassed. They are detained. They are arrested.
    Perhaps the most iconic image associated with the Tiananmen 
massacre is Tank Man, the small, solitary figure with shopping 
bags in hand, who stood in the path of an advancing line of 
tanks. Tank Man remains an enigma. We don't know his fate. Some 
believe he was imprisoned. Others believe he was executed. 
There are some who hope that he's still alive today. We don't 
know.
    While the names of many of the Tiananmen protesters are now 
lost to history and to the Chinese government's Orwellian 
memory hole, the bravery of protesters in the face of certain 
danger reminds us that the principles of freedom, democracy, 
and self-rule are not just American principles. They are human 
principles that neither tank treads, nor torture, nor terror 
can erase--not even by the Communist Party of China--principles 
that I believe still remain the quiet hope and aspiration of 
many people in that ancient and noble nation.
    The U.S., the nations of the free world, should demand that 
the Chinese government allow open discussion of the events of 
that day and the enforced amnesia of the Tiananmen Square 
massacre in China, online, at Confucius Institutes here in the 
United States that operate on our college campuses, and 
globally as well; and that they unconditionally release those 
detained or in prison for attempting to commemorate the 
anniversary, and reckon publicly with the horrific violence 
experienced by the Chinese people at the hands of the Party and 
the military.
    And we must continue to use opportunities like this, Mr. 
Chairman--and I thank you for calling this hearing--because we 
must use opportunities like this to speak about the true story 
of the Tiananmen Square massacre. This point is important 
because Tiananmen revealed to the world the true nature of the 
Communist Party in China. For decades successive U.S. 
administrations have tried to pursue constructive engagement. 
The bipartisan conventional wisdom wrongly assumed that trade, 
investment, and other engagement would eventually persuade 
Beijing to embrace and accept liberty and respect for human 
rights. And that optimism was misplaced. Today we see an 
increasingly aggressive Chinese Communist government that is 
more repressive in domestic policy, more mercantilist in trade 
and economic policy, increasingly dismissive of all 
international norms, and more assertive in exporting their 
authoritarian model globally.
    While Chinese government-sponsored repression looks much 
different today than it did 30 years ago, the goal remains 
exactly the same: to preserve the Communist Party monopoly on 
domestic political power through state-sponsored 
indoctrination, through mass surveillance, and through 
arbitrary detention, torture, and violence.
    The Communist Party today in China is using technology to 
stay in power, whether through the emerging social credit 
system or the vast digital surveillance state and accompanying 
internment camps, to transform the religious and ethnic 
identity of millions of Uyghurs and other Muslim ethnic 
minorities in Xinjiang. Data-driven surveillance facilitated by 
iris and body scanners, voice pattern analyzers, DNA sequencers 
and facial recognition cameras in neighborhoods, on roads, and 
in train stations--technology, by the way, that they export 
into other countries. It sounds like science fiction, but it's 
happening.
    In the era of high-tech social control, there is a direct 
line of repression linking the Tank Man and the internment of 
over 1 million Uyghurs and other predominantly Muslim 
minorities in what they call political reeducation camps. And 
just over the weekend, Twitter, a global company that isn't 
even allowed to operate in China, suspended the accounts of 
reportedly more than 100 Chinese language users critical of the 
government, coincidentally, just ahead of this anniversary. We 
must also keep American companies accountable for their 
potential complicity in Chinese government censorship and other 
abuses.
    I hope that the time has come for the U.S. to once again 
lead, along with the rest of the free world, in holding the 
Chinese government accountable for its ongoing blatant 
repression of the Chinese people.
    We must stand with the oppressed Tibetan Buddhist monk, the 
silenced human rights lawyer, the imprisoned Christian pastor, 
the disappeared Uyghur Muslim, the disillusioned Hong Kong 
democracy activist, and countless others living under the 
repressive policies of the Chinese government. To do anything 
else dishonors the spirit of Tiananmen, it tarnishes the memory 
of those lost, and it places us on the wrong side of history. 
Thank you.
    [The prepared statement of Senator Rubio appears in the 
Appendix.]
    Chair McGovern. Thank you very much, Senator. Thank you for 
your powerful statement.
    You know, it was 30 years ago this week that an estimated 1 
million Chinese students, workers, and citizens joined the 
peaceful protests in Tiananmen Square and in over 400 cities 
throughout China. The people of China were calling for an open 
dialogue with government officials about corruption, the 
acceleration of economic and political reform, and the 
protection of human rights. We remember with sadness and 
outrage the crackdown that followed as the People's Liberation 
Army was unleashed on its own people. Some of you in this room 
were in Tiananmen Square on that day 30 years ago. We know you 
took great risks. We know you lost friends. And we know you 
have sacrificed so much in the years since to advance democracy 
and support the human rights and dignity of all the people of 
China. I want to thank you for all of your leadership and for 
your advocacy.
    One of the most inspiring images in history, as Senator 
Rubio pointed out, was that lone man standing in the street 
before the line of tanks in Tiananmen Square. We may never know 
the name of the Tank Man, but his active resistance symbolizes 
the spirit of Tiananmen that lives on in the hearts and minds 
of those continuing the struggle in China and abroad.
    You know, in China, the Tiananmen Mothers is a group of 
relatives and friends of those killed in June 1989. At great 
risk to themselves, they continue to ask for the right to mourn 
publicly and call for a full, public, and independent 
accounting of all the victims. Ding Zilin, the 82-year-old 
founder of the group, lost her 17-year-old son on that day. 
Chinese authorities have tried to intimidate and silence her in 
advance of the 30th anniversary. Official surveillance never 
ends for her, as she is followed by Chinese security officers 
every single day. The government fears her memory, her 
devotion, and her moral standing.
    In the years since Tiananmen, the human rights situation in 
China has worsened. Tiananmen was a key turning point as the 
country moved from the brink of openness and reform to new and 
evolving methods of repression, including against the Tibetan 
and Uyghur peoples. Some have described a slow-motion Tiananmen 
happening in Xinjiang with the ongoing mass internment and 
surveillance of Uyghurs and other Turkic Muslims.
    A better path forward was offered by Nobel Peace Prize 
Laureate and Tiananmen student leader Liu Xiaobo who co-
authored Charter 08. Published on December 10, 2008, the 60th 
anniversary of the Universal Declaration of Human Rights, it 
called for constitutional government and a respect for human 
rights. Despite official efforts to censor Charter 08, it was 
eventually signed by more than 10,000 people. Sadly, Liu Xiaobo 
spent a total of almost 16 years in prison and died in state 
custody in 2017.
    Today in China, the Tiananmen Square massacre is erased 
from history books and any mention of it is censored. But we 
know the spirit of Tiananmen is still alive and well. We know 
because China's leaders demonstrate their fear of it every 
single day with their security cameras, censorship, detention 
centers, and obsession with preventing the people of China from 
learning the truth.
    We know the spirit of Tiananmen is alive and well in Hong 
Kong where hundreds of thousands of people, as I mentioned 
earlier, have come together in Victoria Park to hold a 
candlelight vigil for the victims of the Tiananmen Square 
massacre. In his famous last statement, ``I Have No Enemies,'' 
Liu Xiaobo said, ``No force can block the thirst for freedom 
that lies within human nature, and someday China, too, will be 
a nation of laws where human rights are paramount.'' I look 
forward to that day.
    This afternoon, right after this hearing, the United States 
House of Representatives will consider a resolution to remember 
the victims of the violent suppression of the democracy 
protests in Tiananmen Square and throughout China. The 
resolution calls on the Chinese government to respect the 
universally recognized human rights of all people living in 
China and around the world. I urge all my colleagues in the 
House to support this resolution.
    I now yield to the distinguished chair of the House Foreign 
Affairs committee, Eliot Engel.

                 STATEMENT OF HON. ELIOT ENGEL,
             CHAIR, HOUSE FOREIGN AFFAIRS COMMITTEE

    Well, thank you, Mr. Chairman, Senator Rubio. Welcome to 
the House Foreign Affairs Committee. It's good to see so many 
people here. The place is packed because obviously this is a 
very important anniversary.
    Today marks the 30th anniversary of the Chinese 
government's violent crackdown against peaceful pro-democracy 
demonstrators in Tiananmen Square. I remember it well. It was 
my first year in Congress.
    On that dark day, the People's Liberation Army openly fired 
upon protesters, many of whom were students. We don't know how 
many lost their lives that day, but we do know that this 
tragedy derailed the hope that China's economic reforms of the 
1980s would be accompanied by political openness.
    The events at Tiananmen Square were a watershed moment for 
China, for the students, activists, and dissidents who hoped 
for a brighter future for their country, and for the rest of 
the world. That day made clear that China's Communist Party 
intended to hang on to power at any cost and to suppress 
dissent violently if necessary.
    In the 30 years that followed, Chinese authorities have 
tried to erase from history the demonstration in Tiananmen 
Square and the subsequent bloodshed. You won't find any record 
of these events on China's internet or in the pages of Chinese 
textbooks, and when the Chinese Communist Party is pushed for 
answers about the carnage at Tiananmen, officials justify the 
actions as a necessary cost of maintaining stability and 
delivering economic growth. We heard this refrain at the 
Shangri-La Dialogue in Singapore just a few days ago.
    Since Tiananmen, the Chinese Communist Party has become 
even more authoritarian, a trend that has accelerated under 
President Xi Jinping's rule. Lawyers, civil society leaders, 
and other champions of human rights, religious freedom, ethnic 
minority rights, and the rule of law have been jailed, 
disappeared, or brutally repressed. More than a million Uyghurs 
and Muslim minorities in Xinjiang have been detained in 
reeducation camps, which the Assistant Secretary of Defense for 
Asia has called concentration camps, in an effort by the 
Chinese government to erase Uyghur culture and Islamic faith. 
Tibetans live under intense repression and surveillance, and 
the Chinese Communist Party continues to violate international 
religious freedom by insisting that the Party has a role in 
approving the Dalai Lama's successor. Human rights and freedom 
are also under siege in Hong Kong, which has traditionally 
maintained some autonomy under the promise of ``one country, 
two systems.''
    China has started using immigration policy in its courts as 
a weapon against Western targets. It's increasing the use of 
exit bans as a tool of coercion and using politically motivated 
charges against people like Canadian citizen Michael Kovrig to 
achieve diplomatic ends.
    More and more, the Chinese Communist Party exports its 
repressive values, whether by spreading surveillance 
technologies or trying to silence international criticism of 
its actions through economic coercion or reshaping 
international institutions to better reflect Beijing's views on 
issues like Taiwan. But that's not all. We also see China's 
attempts to rewrite history in other areas, such as its 
unfounded, illegal territorial claims in the South China Sea, 
and its peddling of a false narrative of the Chinese occupation 
of Tibet.
    We cannot stand silent in the face of this aggression and 
abuse of so many people's basic rights and dignity. We must 
relentlessly put a spotlight on human rights violations, both 
those in the past and those today, and hold the perpetrators 
accountable.
    Today's hearing is a crucial reminder that China is not a 
unitary state or actor. Our concern should focus on the Chinese 
government and the Chinese Communist Party, not the Chinese 
people or Chinese civilization. That is why we condemn the 
Chinese government's cruel actions on June 4, 1989. We urge the 
Communist Party to make a full and public accounting of those 
killed or missing. We urge the Chinese government to respect 
human rights and freedom, to release arbitrary detainees, and 
to overturn counterproductive policies on terrorism, speech, 
and cyber policy.
    We are also reminded today that there are Chinese women and 
men who, like the late Liu Xiaobo and his wife Liu Xia, 
continue to speak out against the Chinese government's 
oppressive policies, and urge reform and respect for universal 
human rights. These brave men and women know full well they're 
putting their lives on the line by speaking out this way, but 
they do so anyway because they refuse to give up on the vision 
of a brighter future for themselves and their country.
    So in conclusion, we celebrate them. We share a common 
cause with those who have advocated for, and continue to 
advocate for, a freer and more just Chinese society. We hope 
that their courage and persistence are not in vain.
    Thank you again, Mr. Chairman, and I yield back.
    Chair McGovern. Thank you very much. And now I am delighted 
to yield to a great champion of human rights, the gentleman 
from New Jersey, Mr. Smith.

                 STATEMENT OF HON. CHRIS SMITH,
             A U.S. REPRESENTATIVE FROM NEW JERSEY

    Representative Smith. Thank you very, very much, Mr. 
Chairman. Thank you and Senator Rubio for calling this joint 
hearing of the Congressional-Executive Commission on China, on 
which I serve as ranking member, and the Lantos Human Rights 
Commission, on which I serve as cochair. I thank our very, very 
eloquent lead witness, Speaker Pelosi, for her leadership.
    The heroes who will soon be testifying underscore the 
importance that we attach, the profound importance, of 
remembering the infamous Tiananmen Square massacre, the day and 
days when the best, the bravest, and the brightest of China 
were brutally suppressed by dictatorship. Thirty years ago the 
world watched as over a million Chinese gathered to peacefully 
demand political reform and fundamental human rights.
    The hopes and promises of those heady days of 1989 ended 
brutally with violence, tears, bloodshed, and detention and 
exile. But over the past 30 years, those tears have led to a 
renewed hope and a dream that someday China will be free, and 
fundamental universally recognized human rights would be 
respected. Mothers lost sons, fathers lost daughters, and China 
lost an idealistic generation on June 4th, as the tanks rolled 
into Tiananmen Square.
    We also remember the massacre, here in Congress each year, 
because of its enduring impact on U.S.-China relations. How do 
you deal with a country and treat with respect a dictatorship 
that so brutally disrespects its own people and again, treats 
them with torture and other hideous and barbaric behavior? We 
remember it because an unknown number of people died, were 
arrested, and were exiled for simply seeking human rights. We 
remember this date each year because it's too important to 
forget and because it's too dangerous in China to commemorate 
it.
    The legacy of Tiananmen Square was further seared in my 
memory when I, along with Frank Wolf, visited Beijing Prison 
No. 1 back in 1991. I will never forget the faces of those 
gaunt Tiananmen Square prisoners, and there were about 40 of 
them at that prison camp, their heads shaved, in tattered 
clothes, bent over machines, working grueling hours on clothing 
for the United States and other markets.
    I'll never forget that day. It inspired my efforts along 
with many others, including Frank Wolf and Speaker Pelosi, to 
fight against the fantasy that trade and investment would 
somehow lead to political liberalization and human rights. 
Dictatorships do not matriculate to democracies because you 
give them more money. As a matter of fact, I believe it makes 
them worse.
    As documented so well by the CECC's Annual Report, the 
domestic screws on dissent have tightened considerably since Xi 
Jinping assumed the presidency. The scope of Mr. Xi's 
repression is immense, with more arbitrary detentions, 
censorship, torture, and social control--as Senator Rubio 
pointed out a moment ago--like we've never seen--the 
surveillance state and the police state joined as one.
    President Xi and top Communist Party leaders regularly 
unleash bellicose attacks on universal values, Western ideals, 
and ``revisionism.'' They have pushed through new laws that 
legitimize political, religious, and ethnic repression, further 
curtail civil liberties and civil society, and expand 
censorship on the internet.
    Rights lawyers and labor organizers are tortured and 
jailed. Hong Kong booksellers and Chinese activists disappear, 
even from safe havens like Thailand. Citizen journalists and 
religious leaders are arbitrarily detained. We have a new thing 
under Xi Jinping--sinicization--the idea that every single 
religious body from the Falun Gong to Christians to the Uyghurs 
to the Tibetan Buddhists, all have to comport with Xi Jinping's 
master plan of socialism.
    Impunity and repression and brutality are the ties that 
bind the Tiananmen Square massacre and the internment of over a 
million Uyghurs and other Turkic Muslims, in what only can be 
described as concentration camps. The U.S. cannot be neutral 
when human rights are trampled with impunity or when crimes 
against humanity are being committed as we speak. Either you 
stand with Tank Man or you stand with the tank. There is no 
middle ground. That is why the CECC has pressed the 
administration, both past and present, to hold accountable 
those Chinese officials and businesses complicit in the most 
egregious human rights violations. Strong rhetoric condemning 
crimes against humanity occurring in Xinjiang is not enough at 
this point. Those who abuse universal freedoms with impunity 
should not prosper from access to the U.S. and other economies, 
other countries, or political freedom. It is the least that the 
U.S. can do to show leadership in a world where Chinese cash 
increasingly buys silence.
    We can no longer afford to separate human rights from our 
other interests. We know that past presidents have done that. 
Tiananmen Square we thought would be the end of most-favored-
nation status--and I joined speaker Pelosi and David Bonior and 
others in a bipartisan effort to say MFN ought to be linked 
with human rights. The President linked them. Unfortunately, he 
then de-linked them in 1994, and that led to, I think, an 
appraisal of the United States that profits trump human rights. 
Human rights matter; so does the rule of law.
    While the hopes of Tiananmen Square demonstrators have not 
yet been realized, the demand for universal freedom continues 
to inspire the Chinese people today. I believe that someday 
China will be free. Someday the people of China will enjoy all 
of their God-given, universally recognized human rights, and a 
nation of free Chinese men and women will honor and celebrate 
the heroes of Tiananmen Square and all those who have 
sacrificed so much for so long for freedom.
    I yield back.
    [The prepared statement of Representative Smith appears in 
the Appendix.]
    Chair McGovern. Well, thank you very much. I know there are 
a lot of other people on the panel who want to speak. I am 
going to urge them to work their remarks into their questions. 
We want to get to the panelists.
    Let me just say at the outset here that we have nothing but 
the highest regard for the people of China. We admire the 
culture. We admire the history and the traditions of China. We 
are here today because we are outraged about the human rights 
abuses that continue to occur, and we believe that for our 
friendship to grow, we need to see some change in terms of the 
government's human rights behavior.
    So I am pleased to welcome an outstanding panel of 
witnesses who will examine how the Tiananmen Square massacre 
shaped new forms of repression in China and how demands for 
democracy have persisted in spite of their repression. They 
will also offer forward-looking recommendations on how U.S. 
policy can effectively support human rights and the rule of law 
in China.
    That panel includes Wu'er Kaixi, a leader in the 1989 
Tiananmen protest and one of the Chinese government's most-
wanted student leaders. He's the chairman of the Taiwan 
Association for Democracy Advancement in China and is a Uyghur 
national. He is a vocal critic of the Chinese government's 
human rights abuses in Xinjiang. He traveled all the way from 
Taiwan to join us this morning. We're grateful that you are 
here.
    We are also proud and happy to welcome Zhou Fengsuo, a 1989 
Tiananmen student leader and co-founder and president of 
Humanitarian China. He set up the first student broadcast 
center in Tiananmen Square that has become the operation center 
for the protesters. He was also one of the most-wanted student 
leaders.
    Mi Ling Tsui, communications director at Human Rights in 
China and head of the ``Unforgotten'' project, a series of 
profiles that tell the stories of victims and their families, 
including the Tiananmen Mothers group.
    Carl Minzner, a professor of law at Fordham University, is 
an expert in Chinese law and governance and author of ``End of 
an Era: How China's Authoritarian Revival Is Undermining Its 
Rise.'' We are thrilled to welcome him back to Congress.
    Finally, Shanthi Kalathil, senior director of the 
International Forum for Democratic Studies at the National 
Endowment for Democracy. She's a leading voice in Washington, 
D.C. and on the internet on authoritarian regimes. She has 
authored several seminal reports on the Chinese government and 
Communist Party censorship, influence operations, and 
development of sharp power.
    I want to thank you all for being here, and we look forward 
to hearing your testimony and recommendations.
    Wu'er Kaixi, we will begin with you.

                    STATEMENT OF WU'ER KAIXI

    Thank you very much. Mr. Chairman, ladies and gentlemen of 
the committee, Senators and Members of Congress, and through 
you, the freedom-loving people of the United States of America. 
I see some old faces here. Mr. Smith, it is good to see you, 
always.
    It's a great honor to return to what I call the ``Chapel of 
Democracy'' on Capitol Hill, at the invitation of the 
Congressional-Executive Commission on China and the Tom Lantos 
Human Rights Commission.
    It was the Honorable Mr. Lantos himself--may he rest in 
peace--who invited me here three decades ago, after the torch 
of democracy we lit in Tiananmen Square was brutally 
extinguished and I began my life of exile. ``Wu'er Kaixi is 
here to remind us the struggle for democracy in China is not 
over,'' is how Mr. Lantos introduced me at that hearing. Those 
words still ring true, perhaps truer now than ever before. I 
said then that the Chinese Communist Party could not be trusted 
and was an existential threat to freedom and democracy around 
the world. It gives me no pleasure to say now, ``I told you 
so.''
    I was called a ``lover of democracy'' at that congressional 
Human Rights Caucus hearing, though many people have asked me 
since, ``What do you know about democracy?'' It is true that 
when we student leaders led the mass democracy movement in 
Beijing, our knowledge and understanding of democracy was often 
limited to its face value and textbook doctrines, because we 
were from a communist, totalitarian regime.
    But that is precisely why I am a lover of democracy and 
longed for it, because I know what it's like not to have 
democracy and freedom. It is the most precious of gifts and we 
must never take it for granted. That is why I have returned to 
this ``Chapel of Democracy,'' to warn you once again that 
democracy is under attack. As the standard bearer and the 
defender of democracy, it is your solemn duty to protect it. I 
also have to tell you that the light of democracy in China was 
snuffed out because we were betrayed. You betrayed us.
    It was 30 years ago that we took to the streets of Beijing 
and earned the world's sympathy and respect for attempting to 
plant the seeds of freedom and democracy in Tiananmen Square in 
China. We humbly asked China's leadership to fulfill their 
promises to the people because in those heady days everything 
seemed possible. Democracy was flowering in Poland and the 
``new thinking'' of Mikhail Gorbachev was creating excitement 
in the Soviet Union. In China, it was the beginning of opening 
up under reform, and the people were anxiously waiting for it 
to expand into the political domain, as we were promised.
    Those days, as a 21-year-old student leader marching on the 
streets of Beijing and occupying Tiananmen Square, we not only 
had the support of the Chinese people, we had support from all 
over the world, particularly in the democratic countries. 
Clearly, you felt we were fighting for the same as you had 
fought for and live by. It felt like history was on our side, 
and victory would be ours soon.
    But history records that this was not the path for China at 
that time. On June 4th, 1989, the Chinese Communist Party sent 
in tanks and troops to massacre the people it claimed to 
represent. In order to save its own skin, the Communist Party 
brutally suppressed freedom of expression and crushed all 
dissent. It has continued to rule since then, at the barrel of 
a gun, using fear and lies.
    After massacre and condemnation, the world's leaders 
paraded back to Beijing so they could access China's market and 
its billion customers. They argued that change would come 
later. Trade delegations occasionally raised the issue of 
blatant human rights abuses because of the pressure back home 
from the distinguished members of parliament or media or 
academia, but rarely did they wait for an answer or hold 
principles to be more important than money.
    The support we had didn't last and we, the Chinese 
democracy activists, were abandoned to our fate. Mentioning 
Tiananmen became an inconvenience for the leaders of the 
world's democracies. We were betrayed. Naturally, today's world 
leaders are not responsible for the mistakes of their 
predecessors, but if you ignore the lessons of the past and 
continue to look the other way rather than hold the Communist 
Party accountable for its crimes, it will be too late to say or 
do anything about it, and this looks suspiciously like a policy 
of appeasement.
    This policy started in the early 1970s with Mr. Henry 
Kissinger, the chief architect of this China policy, insisting 
that it was in the national interest of the United States to 
form a united front against the number one enemy of the country 
at the time, the Soviet Union. Certainly, there was no moral 
foundation for being so accommodating to the totalitarian 
Chinese regime, but when the Chinese regime massacred its own 
peaceful, protesting people, would this policy be altered? No, 
it wouldn't. Not only did it take four days for the late 
President George H.W. Bush to condemn the atrocity, he secretly 
went to Beijing not long after. Why the secrecy?
    Later that very same year, the Berlin Wall fell, and then 
soon after, the Soviet Union collapsed. The Cold War, lasting 
four decades, had ended; the national interest that Mr. 
Kissinger proudly proclaimed that he was looking after, had 
expired. Yet the policy remained, and Mr. Kissinger was 
received as one of Beijing's greatest friends and became 
fabulously rich by brokering favored access to the Chinese 
market for American companies.
    I have waited a long time for the United States to realize 
there is something fundamentally wrong with this picture. 
Perhaps it is only now that a businessman president finally 
sees it.
    I have been lucky enough to live in some of the freest 
places on Earth and I have had 30 years to absorb the idea of 
democracy. In that time, I have been labeled as a democracy 
activist, and it is a badge I wear with immense pride. In my 
experience, democracy is not a religion or set of standards; 
it's a practice, a dynamic process constantly refined and 
improved. It is not perfect, but it always aims for perfection. 
It makes mistakes, but through voting, allows choices and 
changes and the opportunity to put right the mistakes of the 
past. Democracy cautiously trusts the people, and the will of 
the people is expressed through the democratic process. This is 
a very powerful and virtuous idea.
    As I have made plain today, I feel the democracy movement 
in China and democracy itself was betrayed, betrayed by you. 
But I know you will appreciate that this argument is, in fact, 
based on my strong faith in the righteousness of American 
democracy. I firmly believe you will, in the end, correct the 
mistakes of the past to create a better future.
    My definition of democracy is not trusting, and constantly 
exercising democracy until we arrive at the right judgment and 
choice. This is what I want for the people of China.
    I still mourn the loss of friends, fellow activists, and 
family. As a survivor, I keenly feel the guilt and pain that 
belongs to the captain who did not go down with his ship. 
Though it was a great thing that we tried to do, I sometimes 
wonder whether I would do it all over again. The cost was too 
great--measured in the blood shed by my fellow countrymen. We 
made the ultimate sacrifice; we inspired the world in winning 
one of the most challenging battles of the 20th century, the 
Cold War. Yet, in China, we are still waiting for that victory 
to come. I don't want to return to this ``Chapel of Democracy'' 
and say ``I told you so,'' or once again remind you of the 
lessons of the past. With our shared conviction in the power of 
democracy, I hope that we can at last write a fitting 
conclusion to the story that started 30 years ago with the 
Tiananmen Square protest. China deserves democracy too.
    I would like to echo Mr. Smith's distinguished statement, 
``You either stand with the Tank Man, or you stand with the 
tank.'' I truly want to believe that world leaders, including 
those here today, are wise enough not to repeat the mistakes of 
yesterday. I trust you have the courage to face up to China 
before it is too strong and it is too late. This would 
belatedly make our sacrifice worthwhile.
    Thank you very much, ladies and gentlemen.
    [Applause.]
    [The prepared statement of Wu'er Kaixi appears in the 
Appendix.]
    Chair McGovern. Thank you very much.
    Mr. Zhou Fengsuo.

                   STATEMENT OF ZHOU FENGSUO

    Mr. Zhou. Thank you for inviting me to speak today. It is 
such an honor.
    Thirty years ago I was among the last to leave Tiananmen 
Square. We were driven out by tanks and machine guns. The tanks 
were within 10 feet of me. Looking back at Tiananmen Square, it 
was like a war zone.
    I vowed to come back. Five years ago, after testifying here 
at this exact committee, I went back to Tiananmen. I was 
arrested and sent back. But even the police who arrested me 
told me that it was the most hopeful and peaceful period in 
China's history.
    Thirty years ago I saw 40 bodies of young students just 
like me lying on the ground near a bicycle shed outside of 
Fuxing Hospital. Among them was Zhong Qing. I vowed to remember 
his name and speak for him as long as I live. At this very 
moment my heart is with these suffering families, with the 
citizens of Beijing who risked everything to defend us against 
the tanks and marching troops and the storm of bullets. They 
saved us. My thoughts and prayers are with these people who 
over the last 30 years never stopped fighting for justice and 
truth. At this moment, I am thinking of Pastor Wang Yi. We were 
praying together 12 years ago. I still remember his fervent and 
determined voice. He is now in prison, and so is his wife. We 
must demand his release immediately.
    For the last 30 years, people like Liu Xiaobo have fought 
to the last breath of their life. Thirty years ago Liu Xiaobo 
was a visiting scholar at Columbia University before he flew 
back to China to lay down his life for his country. And he died 
in prison. He was the second to die in prison while being a 
Nobel Peace Laureate. The first one was in Hitler's Nazi 
Germany. We must remember him. The Chinese government wants the 
world to forget him. Not even his ashes can be found today. 
When we made a bust sculpture of Liu Xiaobo and then proposed 
it to Columbia University--the university where he stayed 30 
years ago--they rejected it. I ask this committee to offer a 
place, here on Capitol Hill, for Liu Xiaobo. This would surely 
demonstrate a commitment to the democratization of China, and 
it would warm the hearts of all the Tiananmen generation.
    On the policy front, I ask this committee to work on the 
Magnitsky Act. It could be a powerful tool against the 
perpetrators of the Tiananmen massacre and human rights 
violations. On the list we submitted to the State Department, 
one name stands out. It is Li Xiaolin, the daughter of Li Peng, 
Butcher of Beijing. After the massacre, Li Peng's family was 
rewarded with ill-gotten wealth for the blood on their hands. 
Banning Li Xiaolin and her family from entering, and freezing 
their family assets in the United States, will be a small but 
sure step toward justice for those responsible for the 
Tiananmen massacre.
    It was a great mistake for the United States to allow China 
to enter the WTO with the firewall. The firewall is slavery in 
digital times. Every trade with the firewall in place 
strengthens the totalitarian regime. The firewall must be 
removed. China must open its internet before any trade talks.
    For all these years, we tried really hard to reach out to 
the Chinese students here on United States campuses. I always 
received strong and positive responses from them as soon as I 
had the opportunity to talk to them, but we are pretty much 
banned from colleges in the United States simply because of the 
strong presence of organized umbrella groups like CSSA, which 
reports to the Chinese consulate here. We must have a law to 
deal directly against the organized activities of the Chinese 
Communist government in the United States.
    For 30 years the appeasement policy has produced a monster. 
I am delighted to see that the United States is awakening now. 
We must confront this evil empire on all fronts. I am glad I am 
here with friends today in this fight, and we will win. Thank 
you.
    [Applause.]
    [The prepared statement of Mr. Zhou appears in the 
Appendix.]
    Chair McGovern. Thank you.
    Mi Ling Tsui, welcome.

                   STATEMENT OF MI LING TSUI

    Chairman McGovern, Cochairman Rubio, Cochairman Smith, and 
Members of Congress and staff, thank you for this opportunity 
to testify at this important and timely hearing.
    On the 30th anniversary of the bloody June 4th massacre of 
unarmed civilians in Tiananmen Square and many different 
locations in Beijing, we are honored to be among this 
distinguished panel and to be able to give voice to the 
extraordinary efforts of the Tiananmen Mothers, a group of 
family members of June 4th victims as well as survivors.
    For three decades, they have fought against state-enforced 
amnesia to engage in systematic efforts to gather evidence for 
an inevitable accounting of the killing--defying harassment, 
surveillance, and threats of retaliation. They have 
collectively identified and documented 202 individuals killed, 
and through exhaustive interviews with the families and 
eyewitnesses where possible, accumulated a large body of facts 
about the crimes committed against the victims.
    Since 1999, HRIC has worked to support the Tiananmen 
Mothers' demands for justice by disseminating their annual open 
letters and information they have accumulated, to the 
international community. This year, for the 30th anniversary of 
June 4th, in addition to publishing their essay, which I 
attached to my testimony and request permission to be entered 
into the record, we have focused our advocacy contribution on 
our ``Unforgotten'' project.
    The project draws on extensive documentation compiled by 
the Tiananmen Mothers, including interviews, essays, videos, 
and photographs, to tell the individual stories of some of the 
victims--about how they lived and how they died, and how their 
deaths have affected their families. The project seeks to 
highlight the enormous human cost that resulted from Chinese 
government brutality, and the group's refusal to accept 
enforced amnesia about a tragic episode not only for the 
Chinese people, but also for all of humanity.
    They have accomplished this work by the force of their 
moral outrage, mutual support, and tenacity in their pursuit of 
justice for their loved ones. The group began with Ding Zilin, 
the mother of Jiang Jielian, a 17-year-old high school student 
who was shot dead on the evening of June 3rd. She reached out 
to Zhang Xianling, another mother whose 19-year-old son, Wang 
Nan, was killed in the early morning of June 4th. Several 
months later, a note was left at the grave of Wang Nan by a 
third woman, You Weijie, who lost her husband, Yang Minghu, in 
the massacre.
    Identifying the dead has not been easy. Often, names of the 
dead were whispered to the early members of the group or 
delivered on slips of paper. Sometimes the people who provided 
information did not even dare to identify themselves, and there 
were times when families of victims simply refused to be found, 
perhaps out of a sense of shame.
    While some of the families live in Beijing, many others are 
far from the capital, some in the remote farming hinterland 
where roads do not reach. Some parents could not read or write, 
scratching out a living from farming. A heartbreaking fact 
quickly emerged: a victim from a poor family was almost always 
the most promising among the children, the only child that the 
family could afford to send to university in Beijing, whose 
death dashed prospects for a better economic future for the 
family.
    It is from this material that the world can know about how 
the victims were killed. They were killed by martial law troops 
firing indiscriminately into crowds. They were shot in the back 
by troops who chased them into alleys. They were stabbed with 
bayonets after being shot. They were crushed by tanks coming 
from behind them after they had left Tiananmen Square. They 
were run over by military trucks while standing at the roadside 
waiting to cross the street. While many died instantly, others 
who made it to the hospital still breathing were met by doctors 
ordered to treat soldiers only. Family members who went to 
hospitals to claim the bodies of their loved ones were told to 
hurry before the troops came to remove evidence. Bodies were 
hidden by soldiers in a shallow grave in the front lawn of a 
high school.
    Since 1995, the Tiananmen Mothers have appealed to Chinese 
leaders for open dialogue with them as a group to respond to 
their three basic demands: the truth of what happened; 
accountability for the killing; and compensation to survivors 
and families of victims. Never once has the Chinese government 
responded to the request.
    A few days ago we received a message from a group member 
who managed to see our project website, which gave her a sense 
of how people outside China remember June 4th. She said, 
``Seeing the stories about the victims and families made me 
feel so bad because I imagined that in the outside world there 
must be all sorts of commemorative activities marking the 30th 
anniversary of June 4th, but inside China, it is like a 
stagnant pool. We are being monitored.''
    How is it that the Chinese government has been able to get 
away with murder? Not without the complicity of the 
international community. Too many foreign governments accepted 
the bargain, post-Tiananmen, to look the other way, to accept 
what is unacceptable in a civilized world in exchange for entry 
into China's vast consumer and labor markets. And governments 
and foreign companies conveniently believed that China's 
increased integration into the international community would 
help it democratize and play by international rules. But as we 
have seen and continue to see, the opposite is true. Impunity 
for June 4th has emboldened Chinese leaders to perpetuate and 
refine the crackdown model, to use it to obliterate diverse 
voices that the government does not want to hear.
    Against this stark reality, the courage demonstrated by the 
Tiananmen Mothers acts as a guiding force for the international 
community and for all of us to do more to stand up to the 
authoritarian regime and demand justice. On this anniversary, 
we are encouraged by the introduction of House Resolution 393 
by Chairman McGovern and by the solidarity message sent by this 
hearing that the U.S. Government will not allow enforced 
amnesia to silence truth, and that you stand with the Tiananmen 
Mothers in their struggle to press for truth, accountability, 
and compensation.
    The message that the member of the Tiananmen Mothers sent 
to us several days ago ended with this note that highlights a 
force that we should not overlook. She said ``I heard that more 
than 100 people are being forced to leave Beijing. You can see 
from this how the government is afraid of the power among civil 
society to lift the lid on the case of the June 4th massacre.''
    The international community has an important role to play 
in supporting Chinese civil society actors under assault. One 
immediate action that everyone can take is to leave a message 
for the Tiananmen Mothers in the ``What You Can Do'' section of 
our ``Unforgotten'' project site which we will translate and 
channel to the Tiananmen Mothers. To those trapped inside the 
prison of authoritarian China, every single message from the 
outside, either to them as a group, to individual members, or 
about individual victims, will be a source of strength.
    I would just like to end with this note. On October 10, 
2010, Liu Xia, wife of Liu Xiaobo, visited him in prison and 
delivered the news that he was awarded the Nobel Peace Prize. 
She later told the press he cried and said that this Nobel 
Peace Prize belonged to all the lost souls of June 4th.
    Thank you.
    [Applause.]
    [The prepared statement of Ms. Tsui appears in the 
Appendix.]
    Chair McGovern. Thank you.
    Mr. Minzner.

                   STATEMENT OF CARL MINZNER

    Thank you so much, Chairman, Members of Congress, and 
staffers, for organizing this important hearing. It is an honor 
to be here and with such distinguished panelists.
    In the late 1970s and 1980s, Chinese leaders such as Deng 
Xiaoping steered China out of the stagnation, isolation, and 
chaos of the Maoist era and into the reform era. Ideologically 
and economically, China opened up. The ideological fervor of 
the Maoist era faded; newly pragmatic party policies gave 
officials and citizens latitude to import concepts and 
practices from abroad; authorities backed out of people's daily 
lives; religion came back--churches, mosques, and temples 
reopened, albeit under state control; and market reform gave 
citizens control over their croplands and their careers, 
helping fuel a decades-long boom. Politically, China 
stabilized.
    The 1980s saw Chinese leaders support the emergence of a 
range of partially institutionalized political norms to address 
the chaos and instability that they themselves had personally 
experienced under Mao. These included collective leadership, 
rather than Maoist single-man rule; development of internal 
norms regarding the regular promotion, retirement, and 
succession of top leaders; partial depoliticization of the 
bureaucracy with Party authorities turning responsibility for 
managing day-to-day affairs of state over to technocrats within 
the bureaucracy; and the emergence of bottom-up-input 
institutions, such as village elections, giving citizens a 
limited voice into the political process and contributing to 
state legitimacy.
    Then came 1989. Chinese leaders were put to the test. Do 
you allow the forces that you, yourself, unleashed to begin to 
fundamentally reshape your political system, or do you revert 
to Leninist one-party control? Beijing chose the latter. On the 
streets--repression--and so too, within the Party. Reformers 
were cashiered, ideological controls reasserted, and the 
principle that one-party rule should never, ever be called into 
question was reaffirmed loud and clear in internal political 
study sessions.
    China's reform era did not end in 1989. In the 1990s and 
early 2000s, economic reform and social change continued to 
produce a host of private actors, commercial media, and 
internet outlets airing citizen grievances that Beijing 
struggled to control. And many within the Party's own 
bureaucracy continued to experiment with limited governance 
reform, such as administrative law reforms aimed at addressing 
corruption and abuse of power within local government.
    Back in the early 2000s, one could imagine a world in 
which, even if real democratic reform was totally off the 
table, such innovations might allow the hard edges of China's 
political system to be slowly sanded smooth. That did not 
happen.
    As each of those reforms was instituted, citizens rushed to 
use them, first to criticize local officials and then to make 
deeper political claims. At each point, whether with village 
elections in the late 1990s, legal reforms around 2003, or 
flourishing online discussions around 2010, Party leaders saw 
shades of Tiananmen Square. They saw shades of 1989 and moved 
to pull the rug out from under their own reforms or to reassert 
their grip over fields such as the internet where they felt 
their control had slipped.
    In Beijing, Party officials like to think of their response 
to 1989 and subsequent years as a successful antidote--in fact, 
the Global Times had an op-ed from yesterday that compared it 
to a vaccine saving China from the fate of the Soviet Union--
but in reality it has been a destructive virus. Beijing's 
reflexive desire to reassert Party control has mutated and is 
spreading through the veins of China's political system, 
undermining and destroying much of the potential that had been 
introduced in the early reform era.
    Economically, Beijing's push for control has led it to turn 
away from the market-oriented policies of the reform era. Since 
the early 2000s, there's been a recommitment to industrial 
policy, the resurgence of state-owned enterprises and 
designated national champions. The resulting policies, such as 
a massive increase in bank lending going to state-owned 
enterprises, are slowly asphyxiating China's private sector.
    Ideologically, what limited space had opened up during 
China's reform era is steadily contracting. In field after 
field, whether media, law, higher education, or civil society, 
controls have been ramped up to the tightest in decades. 
Draconian new controls have descended upon religious beliefs, 
particularly those viewed as foreign, and particularly in 
China's western region of Xinjiang where about 10 percent of 
the Muslim Uyghur population has been thrown--since 2017--into 
an extensive network of political reeducation camps aimed at 
forcibly re-molding their ethnic and religious identity.
    Politically, those reform-era norms that the Party itself 
adopted have steadily been broken one by one. Since Xi 
Jinping's accession to power in 2012, power has re-concentrated 
in the hands of a single leader; elite retirement and 
succession norms have been toppled; China is now swinging back 
toward single-man authoritarian rule, potentially for decades 
to come. Technocrats are being sidelined by party cadres, and 
what space had once existed in China's halls of power for 
honest discussion among officials themselves over the very real 
challenges facing China, such as how to address mounting debt, 
trade conflicts, and rising social tensions, is being choked 
off as the fear of falling on the wrong side of a rapidly 
changing political line is leading a stifling blanket of 
silence and inertia to descend over the bureaucracy.
    Naturally, all of this poses deep risks for China. Chinese 
leaders themselves launched China into the reform era as a 
response to the political turmoil of the Cultural Revolution 
and the excesses of the Maoist era. But today you can see many 
of those practices begin to push themselves, zombie-like, back 
to the surface again as the reform era steadily unwinds.
    And that is yet another tragedy of Tiananmen. Not only did 
an untold number--hundreds or thousands--die on the evening of 
June 3rd or 4th and the days to follow, and not only did 1989 
close the door on a route for China's political system to 
gradually evolve into something better, but Beijing's decision 
in 1989 continues to reverberate and amplify today, and it is 
steadily dragging the country backward out of the reform era 
and increasing the risk that China will experience a re-
occurrence of yet more tragic periods in its own history.
    Thank you very much.
    [The prepared statement of Mr. Minzner appears in the 
Appendix.]
    Chair McGovern. Thank you.
    Ms. Kalathil, welcome.

                 STATEMENT OF SHANTHI KALATHIL

    Thank you. I'd like to thank the Congressional-Executive 
Commission on China, the Tom Lantos Human Rights Commission, 
and the House Foreign Affairs Committee for the opportunity and 
privilege of presenting testimony here today alongside such 
distinguished colleagues.
    On this day, we grapple with the events of Tiananmen, both 
the hope and the bloodshed, and their legacy 30 years later. 
Part of that legacy is an unsettling disconnect. Even as people 
have grown more connected and our collective access to 
information has expanded exponentially, there's been a curious 
muffling surrounding the world's remembrance of June 4th. Over 
the years, as vigils diminished and stories grew more hushed, a 
Tiananmen Square-sized gap emerged not only inside China, but 
outside as well. The excising of Tiananmen not merely from 
Chinese history, but from the world's collective memory is, in 
fact, no accident. Through censorship and self-censorship and 
augmented by technology, Tiananmen, along with a broad swath of 
topics deemed sensitive, has disappeared down what the scholar 
Glenn Tiffert calls the Chinese Communist Party's memory hole, 
with pernicious effects on current events reporting, on self-
expression, and even on the entire historical record.
    This memory hole constitutes just one aspect of a vast 
apparatus designed to mold the broader information ecosystem 
around the world in ways that help solidify the CCP's rule at 
home as well as reshape the global order to favor this outcome. 
While it does not always function flawlessly, even within 
China's borders, this complex machinery is nonetheless likely 
to reinforce authoritarian norms and institutions and undercut 
democratic ones on a global basis.
    The Chinese party-state is keenly aware of the 
transformative role of information and has always tried to 
harness it. Over the years, the term ``informatization'' 
gradually became synonymous with a complete rethinking of how 
information technology would both suffuse and power economic, 
political, and social development. This indicates a party-state 
that, rather than simply fearing information, fears even more 
the implications of not mastering it.
    With the advent of new tools, informatization has proved 
crucial in the implementation of China's modern surveillance 
state, including but not limited to, the development of public 
security intelligence that has contributed to the Uyghur human 
rights crisis. With the introduction of artificial 
intelligence, informatization has been joined by the newer 
``intelligentization,'' with its corresponding augmentations 
and implications. Even when the CCP projects capabilities that 
might not actually exist yet, this represents the logical 
development of longstanding CCP thinking on information, 
surveillance, and social control. As AI evolves and becomes 
seamlessly integrated into the normal functioning of society, 
it will become increasingly invisible and potentially open to 
abuse. Crucial questions about democratic rights and standards 
are correctly being asked and debated in democracies by 
policymakers, companies, developers, scholars, and activists. 
China's authoritarian system, however, restricts what type of 
questions are allowed to be asked about technology, who gets to 
ask those questions, and, ultimately, who decides.
    For technologies designed to both disappear into and yet 
dictate the rhythms of everyday life, the effect may be to 
imperceptibly manipulate debate and shape individual behaviors 
in an increasingly targeted way, buttressed by millions of data 
points enabling previously unimaginable specificity. More than 
that, it will present those affected with an imperceptible fait 
accompli that subjects them to the standards of the CCP 
information ecosystem.
    This is not some far-off future, but a phenomenon unfolding 
in real time, including with the platforms that are widespread 
within China and now around the world. WeChat, for instance, 
has become indispensable for Chinese citizens, providing the 
allure and convenience of deftly integrated communication, 
services, and amenities, even as this convenience is backed by 
an equally seamless surveillance and censorship apparatus. With 
these platforms increasingly being used all over the world, it 
is imperative that users examine them not solely through the 
lens of consumer benefits, business models, or economic 
competition, but through the prism of implications for rights 
and governance.
    At the level of ideas and norms, the Chinese party-state is 
using rhetoric that mimics, yet undermines, the liberal order, 
injecting its own vision into the existing global framework of 
norms, institutions, policy models, and standards governing the 
internet and information technology. According to 2017's 
International Strategy of Cooperation on Cyberspace, the 
Chinese government ``fully respects citizens' rights and 
fundamental freedoms in cyberspace and safeguards their rights 
to be informed, to participate, to express, and to supervise 
while protecting individual privacy in cyberspace.''
    To be clear, there is no private realm in China into which 
the CCP cannot intrude. This longstanding practice of 
definitional and substantive warping has manifested itself in 
numerous related areas as well, including those pertaining to 
human rights and development. As Samantha Hoffman points out, 
the ability to shape and repurpose longstanding norms is a 
fundamental part of the CCP's conception of discourse power 
underpinning internet governance, big data, AI, social credit 
systems, and even the often invisible standard-setting process 
for the next generation of technological infrastructure.
    It should be clear by now that the Chinese party-state's 
actions in the global information space are not limited to 
China exporting hardware and know-how to other ambitious 
authoritarian states. Beijing's actions have serious 
implications for all democracies and democratic actors, and for 
the web of democratic norms and institutions upon which they 
rest. Any response will need new policy language, frameworks, 
and cooperation between democracies.
    Civil society will have a key role to play. The leadership 
of institutions critical to the health of the public sphere--
publishers, media and technology executives, university 
administrators, and so on--must reinvigorate their commitment 
to democratic standards and free expression through newer 
innovative mechanisms if necessary. Only through crystallizing 
understanding of these matters and galvanizing civil society's 
contribution can democracies address their vulnerabilities, 
shore up resilience, and reclaim their own discourse power.
    Thank you and I look forward to taking your questions.
    [The prepared statement of Ms. Kalathil appears in the 
Appendix.]
    Chair McGovern. Thank you very much. Thank you all for your 
excellent testimony.
    I would now like to yield to Senator Rubio for comments or 
questions.
    Cochair Rubio. Thank you. I'll be brief in my questions in 
the interest of time.
    I just wanted to ask Mr. Zhou, in January, BuzzFeed 
reported that the online service LinkedIn blocked your profile 
in China and then later restored it due to negative publicity. 
Can you tell us what happened?
    Mr. Zhou. Earlier this year, one day I received an email in 
my mailbox telling me that I was censored due to their policy. 
So I tweeted about it on my Twitter and then some reporters 
covered this, and they asked LinkedIn about what happened, and 
they quickly changed their policy. I don't really know what 
happened. When I asked, there was no answer. They blamed 
technical error, but to me, I believe it was most likely 
because of my continued posting about my activities as 
president of Humanitarian China, especially when it relates to 
human rights and Tiananmen. So it was considered inconvenient 
for its Chinese market. That's why I was censored.
    Cochair Rubio. I guess my question--LinkedIn is a 
biographical site. Did you use LinkedIn to speak out 
politically, or you used your other platforms to speak out 
politically, but they censored you because of who you were?
    Mr. Zhou. Yes, I use every platform I can find, and I 
realized even before the censoring that I could reach my 
Chinese friends in China through LinkedIn. That's why I 
posted--for me, that's my job. That's part of my profession now 
as a full-time human rights activist, to talk about what I do.
    Cochair Rubio. Did LinkedIn ever tell you what exact policy 
it was that they had found you in violation of?
    Mr. Zhou. No. There are no specifics on this.
    Cochair Rubio. Mr. Kaixi, you're an ethnic Uyghur in 
background and one of the student leaders who initiated one of 
the largest protests in Chinese history. Could a Uyghur student 
have such a prominent position now?
    Mr. Kaixi. Thank you, Senator. In 1989--I think April 17th 
was the first time I stepped up and started to give speeches--
until June 4th, about 50 days. That 50 days was the time that I 
experienced being a Uyghur in China without feeling 
discriminated against in Tiananmen Square by my fellow 
students. That was an extraordinary time.
    I was brought up in China. The discrimination was constant, 
and it was everywhere. But we were fighting for a greater goal 
together in democracy and human rights in 1989, and in that 
setting, discrimination in Tiananmen Square vanished.
    Today, not even a prominent political figure who has 
influence in China--nowadays, other than the Communist Party, 
nobody can do it; even the dominant Han Chinese are prohibited 
from becoming influential in China, other than from within the 
Party. And for Uyghur people, that situation is much, much 
worse. You don't need to have an opinion to be persecuted.
    In the early days, I often said--I am a dissident. I choose 
this path--well, history kind of put me in this position, but I 
gladly accepted this path of being a Chinese dissident. So 
therefore, I understand the ramifications. I understand there 
are some consequences following from that. But for those who 
did not do anything, didn't challenge the government, they are 
being persecuted, being oppressed, simply because they are 
Uyghur. That is one of the most heartbreaking truths that I 
have to live with today, including, especially, my ailing 
parents. They are not getting younger or healthier. Among the 
student leaders, I think--from back in Tiananmen, I think I am 
the only one who hasn't been able to see my parents in 30 years 
because the Chinese government denies them from traveling 
abroad.
    I just appreciate this opportunity to elaborate a little 
bit on how we need to see, how we need to treat the Chinese 
regime. They are barbaric. This action of denying my parents' 
right to travel abroad is primitive. These are the words I use 
because these are the words we were taught in China growing up; 
like if somebody totally innocent were being punished because 
they are a relative or a family member of a criminal, that 
would be considered as barbaric and primitive. Those are the 
only words that I can use today to think about this regime. 
Thank you, sir.
    Chair McGovern. Thank you very much.
    Mr. Suozzi of New York.
    Representative Suozzi. Thank you, Mr. Chairman, and thanks 
to all the chairmen and all my colleagues. It is a great honor 
for me to be on the dais with all of you with so much 
experience in this area. And a thank you to the witnesses. You 
are all very moving. You educated me quite a bit today.
    Mr. Wu'er Kaixi, I want to thank you. You said you felt 
betrayed by us. And I think that's understandable, and I can 
appreciate that, especially what's happening to the Uyghurs 
today after all this time.
    The talk today is, the Chinese are cheating when it comes 
to global trade. They're cheating by stealing intellectual 
property. They are cheating with us not having access to their 
markets. They are cheating the way they subsidize the 
businesses. That's all true; they are cheating. They're 
breaking the rules.
    But I don't think that the general public, certainly here 
in the United States of America, has a sense of what you're 
talking about today. They don't understand the human rights 
abuses that are so widespread throughout China. They don't know 
that many Chinese don't know about Tiananmen Square. That's 
hard to imagine. If you're living in American culture, the idea 
of seeing the man in front of the tank--many of us have seen 
that, at least if you are over 30 years old, 25 years old, 
you've seen that. But the idea that people in China don't know 
about that is hard to imagine. The idea that the Uyghurs are 
living in concentration camps and people are being abused--and 
Mr. Smith and I have a bill that we're working on that we have 
presented that we hope will get the support of the members of 
this committee, and we hope that you will be interested in that 
as well. I don't think people realize that people who are doing 
the candlelight vigil today, right now as we speak, in Hong 
Kong, people are going to be detained. People are going to be 
arrested.
    We need to monitor very carefully, Mr. Chairman, what's 
happening in Hong Kong today with the people who are out there 
with the candlelight vigil. We need to monitor very closely 
what's happening with those folks. People don't understand 
about the journalists that have been detained. People don't 
understand how they're trying to change the Tibetan language, 
have it no longer be the language of Tibet, and trying to make 
everyone speak the same way, and do it prefecture by 
prefecture. So we have a lot of work to do.
    I want to ask you, Mr. Wu'er Kaixi--try and tell us--and I 
know you do not have a statistical answer to this, but what 
percentage of Chinese people do you think understand what 
happened at Tiananmen Square? Is it half the people? Is it less 
than half?
    Mr. Kaixi. Thank you, sir. I think we need to remember that 
the Chinese regime does its very best to censor the internet--
any kind of information flow into China.
    Representative Suozzi. It is not in the textbooks at the 
schools?
    Mr. Kaixi. Nothing.
    Representative Suozzi. Nowhere.
    Mr. Kaixi. My name, for instance, is definitely not sought. 
It cannot be found in any of the search engines in China, and 
it actually has also been banned from being used to name a 
newborn among Uyghurs. So the thing the world needs to 
understand is that the Chinese regime uses their utmost 
possible extreme to----
    Representative Suozzi. I understand what they're doing. I 
want you to just give me--I know it is not going to be precise. 
Would you say half the people know about Tiananmen Square, or 
less than half?
    Mr. Kaixi. I would say less than that. I think maybe 20 
percent.
    Representative Suozzi. Mr. Zhou, would you agree with that?
    Mr. Zhou. Yes. I would answer that I think it's definitely 
less than half. Even for our generation who witnessed it, 
personally experienced it, most of us only saw a little part of 
it, never knew the whole story like I do here. And also, the 
younger generation today has grown up completely under the 
shadow of the firewall. That means every----
    Representative Suozzi. I just want to try and get across 
the idea that people--that they are effective in doing this. 
Americans I don't think can understand this concept that only 
20 percent of the Chinese people know about Tiananmen Square.
    Mr. Zhou. Right.
    Representative Suozzi. I don't want to take up any more 
time because my colleagues want to ask questions as well. But I 
would like you to come to New York to my district--I have a lot 
of Chinese Americans in my district--to come and talk about 
what we talked about today, to educate people as to what's 
going on with the Uyghurs, what's going on with Tibet, what's 
going on in Hong Kong, what happened at Tiananmen Square. We 
need to educate the American people because as you said 
earlier, this is a dynamic process, and it's constant work we 
have to do. Part of that work is educating the American people 
so that they can support you in this effort--because nobody 
likes the idea that they betrayed you, and we need to work to 
try and address this. I'm committed to working with you. I want 
you to come to my district if you're interested and we will try 
to get it in the New York media market to try and educate 
people as to what's happening here, because right now it's--you 
talked about the chapel of democracy here in this room--not 
enough people know what's going on.
    Thank you so much for being here today.
    Mr. Kaixi. Thank you, sir.
    Mr. Zhou. Thank you for the offer. I will definitely work 
with you on that.
    Chair McGovern. Thank you.
    Mr. Smith.
    Representative Smith. Thank you very much, Mr. Chairman. 
Thank you all. To our witnesses, your testimony was 
extraordinary, very incisive. And to Mr. Wu'er Kaixi, thank you 
for warning us once again, as you put it. I think you spoke 
with such candor when you said to us that, ``as a standard 
bearer and defender of democracy it is your solemn duty to 
protect,'' and ``I also tell you that the light of democracy in 
China was snuffed out because you let us down. You betrayed 
us.'' There are many of us who feel that that is absolutely 
true.
    While we cannot dictate events in Washington, we were 
complicit--words used by other witnesses. I was one of those 
who thought that President Bush--the first Bush--got it wrong, 
particularly when he sent Brent Scowcroft to China to reassure 
them--``no problems here.'' But I think that also became 
bipartisan complicity that is underrecognized and 
underappreciated for the impact it had on the democracy 
movement.
    I've chaired 68 congressional hearings on human rights 
abuses in China over the years. Several of those had to do with 
the democracy activists. I had one in 1996, December 18th, 
``Was There a Tiananmen Square Massacre? The Visit of General 
Chi'' Haotian. As you all know, he was the operational 
commander who sent in the tanks. He also became the defense 
minister. To his shame, Bill Clinton invited him to the White 
House and gave him a 19-gun salute. Then Chi went to the 
National Defense University and said that nobody died at 
Tiananmen Square.
    Now back home in China, it was all carried as if it were 
truth. Of course, it was disputed here. I put together a 
hearing two days later, had Tiananmen Square activists who were 
there and bore truth. We gave a chair and we invited the 
embassy to come, the Chinese Embassy. They failed to show, as 
did Chi Haotian. But that kind of bald-faced lie in the face of 
something that was watched on CNN live was appalling. But 
that's the kind of disinformation and lying they get away with.
    I also had hearings on the WTO. I argued with the Clinton 
Administration again. How can you accept them into the WTO when 
they break with impunity human rights standards and norms, 
universally recognized human rights? That hearing was in 1996 
as well, and it was part of a series of hearings.
    China was accepted. Again, profits trumped human rights. It 
has been a bipartisan and, I would respectfully say, colossal 
failure. Hopefully we've learned from it. Hopefully this 
administration will turn that page, which previous ones have 
not done.
    I would also say President Obama did the same thing when he 
had Hu Jintao, the president, at the White House for a joint 
press conference. One of the reporters, from APS, asked a very 
good question about human rights; all of a sudden there were 
problems with hearing the question. And President Obama jumped 
in and gave a defense of this dictatorship. So bad was it that 
the Washington Post did an editorial: ``Obama Defends Hu on 
Human Rights.'' It was a great editorial, underscoring that 
complicity that was talked about a moment ago.
    So let me just ask--lessons learned--do you think we're 
finally at that point where we have learned them? Secondly, I 
did an op-ed in the Washington Post and I would ask you to read 
it if you haven't. You know it because you live it and you have 
friends who are living it--``The World Must Take a Stand 
Against China's War on Religion''--the existential threat that 
is now posed by Xi Jinping to co-opt it. It was mentioned 
earlier by one of our witnesses.
    Carl, you talked about draconian controls. Please speak 
briefly to that because the world does have to speak out 
against this. We have the International Religious Freedom Act 
filled with sanctions that need to be levied against China. We 
have the Global Magnitsky Act that needs to be used on 
different human rights abuses. Speak to those issues as well.
    Mr. Kaixi. Thank you, Mr. Smith.
    I think you would agree that we are friends. I would also 
like to echo what my friend Zhou Fengsuo just said: We are 
among friends today. And then yes, I did say quite plainly that 
you betrayed us, but I also said that we believe in democracy, 
we have the conviction of democracy, which is a dynamic process 
from which we will learn from our mistakes.
    One of the biggest mistakes is that the United States, the 
government especially, the presidents--in the past, world 
leaders have had to follow the United States later--treat China 
as something it really isn't. The Chinese regime--I am talking 
about the Chinese Communist Party regime--the world treats--the 
United States Government treats--the Chinese regime as a big 
country, a responsible stakeholder. It's supposed to be, but as 
a matter of fact, we really should know what the Chinese regime 
is. It's a group of bandits who stole the position of ruling 
one of the largest countries and took advantage of that 
position to loot the country. You'd be much better off when 
forming your China policy by consulting your criminologists 
instead of international relations experts--to apply the 
Magnitsky Human Rights Act to every individual--because if you 
read through the Magnitsky Act itself you find it applies to 
every member of these 200 families. If you--let me report to 
you gentlemen here--if you want to come up with a China policy 
that works, and in the last 30 years haven't we all been a 
little frustrated with a China policy that just doesn't seem to 
work? Then let me give you a tip. Start visa sanctions. Start 
freezing the assets of the 200 so-called elite families. I 
think within two to three weeks they will send a delegation to 
come to the United States and talk about democracy, talk about 
the reform that we have long wanted.
    It is time to make condemnations. It is time to express 
concern. It is time to apply much harder, much stronger 
actions. We have long passed that. They have put more than a 
million Uyghurs in concentration camps, more than a million--in 
the 21st century. The worst human rights abuses since the 
Holocaust we are talking about.
    And then we suggested applying the Magnitsky Act to certain 
levels. And then the response we get from this administration 
is, ``Okay, yeah, we probably should do that, but not on too 
high a level.'' What is too high? What is the arbitrary level 
that human rights abuses accountability should be set at? That 
is the question I would like to ask friends today.
    I do say that you betrayed us, but within democracy we can 
right the mistakes of the past. Under this chapel of democracy, 
I am counting on you, friends of Chinese democracy activists. 
Thank you.
    Mr. Minzner. I would just respond to Chairman Smith's 
question with respect to religion. I think you are dead-on to 
be watching the religious issue. In the beginning of the reform 
era, the Party took a step back from people's personal lives 
and underground churches. The revival after decades of Maoist 
suppression of religious belief was one notable trend in the 
80s, 90s, and early 2000s. As the impetus for control comes 
back, it's hit certain fields first, the more public-facing 
ones--law, media, things like that. But as it rolls on, it's 
going to get deeper into private areas, and religion is the key 
one.
    All religions are going to be affected, but some religions 
are going to be affected more than others precisely because 
they're regarded as foreign. What you are seeing in Xinjiang is 
sort of the leading edge. I think you obviously want to watch 
Christianity because it's large, it's organized, and I think 
the pressures are coming on. I think the roundups of key 
religious leaders in multiple different provinces just last 
fall--I think you can see the waves starting to increase. So I 
think it's exactly what to be watching.
    Ms. Tsui. I would like to add that human rights abuses are 
no longer contained within the borders of China. As the Chinese 
government amasses enormous economic and political clout in the 
international community, it is aggressively trying to export 
its own models of development and human rights--so-called 
``human rights with Chinese characteristics.'' And they are 
trying to rewrite the principles of human rights 
internationally that are based on the lessons that the world 
learned from the horrors of the Second World War.
    Mr. Zhou. Okay, let me add something. I think since the 
Tiananmen massacre, the Communist government has declared war 
on the Chinese people and that is true today. It was reiterated 
a few days ago by the Defense Minister Wei Fenghe. The United 
States' press decision was decisively correct. A regime that 
can invade its own capital with tanks can kill without 
accountability. There is no limit to what they can do.
    I would also echo on the export of threats outside China's 
border. With the new technology, Communist China can do 
enormous damage, can bring disaster to human beings without 
even going outside its own border, be it AI or Big Data. We 
should also notice on the genetic engineering front, the first 
genetically engineered pregnancy, and there's also the report 
about putting human genes in monkeys, for example. These just 
have disastrous consequences to everyone outside of China. So 
we must confront this. Thank you.
    Representative Smith. Thank you.
    Chair McGovern. Thank you. Mr. Sires.
    Representative Sires. Thank you, Mr. Chairman, for holding 
this hearing, and all the other chairmen that are here.
    Thank you for being here today and really talking about the 
degree to which the Communist Party would go to to stay in 
power. This is something that I hope the rest of the country is 
listening to--what your statements have been. I am very 
concerned about what is happening in the Western Hemisphere. 
You know, this China experiment now is making its way through 
the Western Hemisphere. I see it in Cuba. I see it now in 
Venezuela where China is exporting facial recognition to the 
Maduro government so they can continue to control the populace 
as they demonstrate.
    I'm concerned, and maybe I would like you to say something 
about this. China goes around giving scholarships to 
journalists so they can go and study journalism in China. To 
me, that is the most ridiculous and ironic part of the Chinese 
Communist government--that you will have journalists studying 
journalism in a place where you cannot even make an expression 
of discontent, let alone speak and write about what is going on 
in the country.
    And they are doing that throughout the world, but 
especially in the Western Hemisphere. I see people from 
Argentina going. I see people from Chile going to study 
journalism. Can you talk a little bit about that? Someone? 
Anyone?
    Mr. Kaixi. Mr. Sires, I am an emeritus board member of 
Reporters Without Borders, also known as Reporters Sans 
Frontieres, based in Paris, a pioneer organization in defending 
press freedom. We have issued a report about creeping Chinese 
influence in this particular area. And I thank you very much 
for bringing that up.
    Yes. China is inviting a lot of countries, their closer 
friends--and then you look closer into it, and you find a few 
of them are democratic countries. They invite their citizens to 
go to Beijing to study journalism. Not only that, China is 
establishing journalism schools in Africa. That's what is 
happening nowadays. I find it to be a mockery on the face of 
the world. I mean, that China can now teach people about 
democracy and about journalism. Not a long time ago when Xi 
Jinping visited CCTV--China Central Television--they put a 
screen behind him and said CCTV's last name is ``C.'' As in 
Chinese Communist Party. Well, it's kind of lost in translation 
right there.
    [Laughter.]
    Mr. Kaixi. But it kind of also worked, and it kind of--both 
``C'' Communist Party.
    And then when I was in Beijing and studying, my classmate 
who was in journalism school told me that the definition of 
journalism in their textbook is--journalism in China means 
being the mouth and ears of the Party.
    So yes, they have no clue about what journalism is. They 
only understand one thing, and that is called propaganda. Let 
me put it in an even more blunt way; they only believe in lies. 
So to the world, seeing China exporting lies--it is, of course, 
an existential threat to universal values and then to the 
practice of democracy we are living in. Thank you very much, 
sir.
    Ms. Kalathil. Let me just add to that briefly. I think that 
in two areas, the exporting of authoritarian technology in the 
Western Hemisphere--the Chinese party-state has been 
particularly active. You may recall there was a recent New York 
Times story about a system called ECU 911 in Ecuador. That 
system is based on facial recognition that was deliberately 
delivered by the Chinese party-state at the request of the 
Ecuadorans.
    Representative Sires. I meant to include Ecuador. I 
apologize.
    Ms. Kalathil. But it is actually in several countries 
throughout the Western Hemisphere, some version of that. In 
Venezuela, the fatherland card is based on principles of social 
credit that, again, stem from the Chinese system.
    But I think it's in the journalism exchanges where you have 
rightly highlighted that there is a significant issue, because 
frequently in these countries, these exchanges are not 
perceived to be different from the types of trainings that are 
provided by democratic actors. And it's partly because the 
Chinese party-state has been so successful in engaging with the 
public space of these countries around the world, Western 
Hemisphere, sub-Saharan Africa, Central Europe, and so on; they 
are showing up in ways that the democracies are not. So in the 
absence of robust journalism training, for instance, or 
exchanges, or the types of engagement that democracies might be 
providing, the Chinese party-state is there with tremendous 
resources. So if they're offered, if these budding journalists 
in these countries throughout the Western Hemisphere are 
offered a chance to go to China for a week on an all-expenses-
paid trip, they will likely jump at it because they see it as 
an opportunity that they wouldn't normally have. They probably 
bring to that very little experience with the Chinese system, 
very little knowledge of the CCP. So that's also a failure on 
the part of the democracies to really be engaged in this space.
    Representative Sires. Anybody else? Thank you.
    Chair McGovern. Thank you very much. I apologize--I'm going 
to turn this over to Senator Rubio. I have to whip this bill 
that I mentioned earlier that's coming up on the floor in about 
10 minutes.
    But I just want to close, for my part, by thanking all of 
you for being here. As I said in the beginning, China has given 
so much to the world over so many years. When I visited China 
with Leader Pelosi a few years back, it was an incredible 
experience; the history, the culture, but most especially the 
people that we met. So if anyone asks, all of us up here are on 
the side of the Chinese people. Our problem is with the Chinese 
government and their fundamental lack of respect for basic 
human rights and human dignity. Human rights are supposed to be 
important because they are important, not only here in the 
United States, but all around the world. Everybody on this 
planet deserves to have their fundamental human rights 
respected. People here in the United States and around the 
world, I think, were especially horrified with what happened in 
Tiananmen Square because we saw it. The pictures were there. We 
mentioned Tank Man, but the students and the average people 
that we saw and heard about moved us all.
    So none of us can erase that from our minds and no matter 
how much the Chinese government wants to rewrite history and 
have history books that don't include this chapter, the chapter 
is included in every other history book in the world. It's 
etched in our minds and we'll never forget it.
    One of the things I think the Chinese government hasn't 
counted on is that with the advent of technology, news is 
getting in and out of China. We are learning about what's 
happening to the Uyghurs. We are learning about what's 
happening to Tibetans because news is leaking out. Also, what 
we say here gets back to them, so they can't control 
everything.
    When I was in Tibet with Leader Pelosi, the Chinese 
government tried to control every step of our visit. But every 
time we walked down a hallway, somebody would come out and just 
whisper to us, ``Please tell His Holiness the Dalai Lama that 
we love him and that we respect him.'' No matter how much they 
try to erase history, it can't be done.
    I think your testimony here today on this occasion is 
especially powerful because I think it's a signal to the 
Chinese government that we are not going to forget and that we 
need to think imaginatively and out of the box in new ways to 
let them know how much human rights matters to all of us.
    And so this is incredibly important. I thank all of you for 
being here. This has been an excellent panel and I'll now turn 
this over to Senator Rubio.
    Cochair Rubio [presiding]. Thank you.
    Congresswoman Wagner.
    Representative Wagner. Thank you. Thank you, Senator Rubio, 
and thank you to the Congressional-Executive Commission on 
China and to the Tom Lantos Human Rights Commission for 
organizing this important hearing today. I commend our 
panelists for their courage and thank them for being here 
today.
    Since 2011, China has spent more money on controlling its 
own population than on defending against foreign powers. 
According to some sources, China's annual spending on domestic 
``stability maintenance''--as they call it--it's police-state 
apparatus, frankly--now surpasses defense spending by nearly 17 
percent.
    Mr. Zhou, does stability maintenance effectively dampen 
dissent, or has it sparked resentment against the state?
    Mr. Zhou. That's true on both fronts. It creates more 
enemies, more people who suffer from such measures of so-called 
stability maintenance, but on the other hand, it also 
suppresses people's opinions. With the digital technology now, 
it's really hard to associate even in a small group--so that is 
a really big challenge for the people on the ground; we have 
intimate connections with all of them. It's a really dark time 
for them, especially with the new technology.
    Representative Wagner. You would say that this fosters 
dissent and resentment and disassociation on all fronts, 
correct?
    Mr. Zhou. Yes, but on the other hand, it does repress 
effectively. It's very difficult to organize now.
    Representative Wagner. Thank you.
    Since 1997, Hong Kong has fostered respect for the rule of 
law, for human rights, and personal freedom as an autonomous 
special administrative region of China. However, China has 
aggressively sought to erode civil liberties in Hong Kong, 
including by harassing the operators of a museum commemorating 
the 1989 massacre.
    Professor Minzner, how can the United States support 
efforts to combat China's bullying tactics in Hong Kong?
    Mr. Minzner. That's an excellent question. And I think, 
Congresswoman Wagner, you highlighted that Hong Kong is an 
excellent issue to focus on precisely because as the space that 
once existed in China erodes, it's directly affecting Hong Kong 
as well. And it's not just the individual bullying--it's the 
arrests of the booksellers, the seizure of people in Hong Kong, 
bringing them to mainland China. It's the erosion of the norms 
with respect to electoral practices, this proposed extradition 
law that's going through. I certainly think congressional 
concern on this issue is something that at least triggers 
interest in Hong Kong precisely because of Hong Kong's trade 
status.
    Representative Wagner. Right.
    Mr. Minzner. The question is, what does that mean for 
Beijing? Clearly, you are seeing delegations of folks from Hong 
Kong who are coming to the United States right now focused on 
this. And I would be expecting, to the extent that some of you 
are on the Foreign Affairs Committee, that's probably one of 
the top issues that----
    Representative Wagner. I want Beijing to know that we are 
watching what they are doing in Hong Kong very closely.
    I understand that China's concentration camps in Xinjiang, 
where an estimated--as we've heard already--1 million Muslim 
Uyghurs have been detained, are evolving now into a forced 
labor system.
    Mr. Wu'er Kaixi, how can the international community deter 
the creation of a gulag in Xinjiang?
    Mr. Kaixi. Thank you, Representative Wagner.
    I think, as I said earlier, there was a time to express 
concern, there was a time to make condemnations, there was a 
time for harsher punishment. And there is also a time to know 
how to hurt the opponent. When they hurt they react a little 
bit reasonably. After 30 years living in exile as a political 
dissident, that's one important lesson we learned--outside 
pressure works.
    But what is the outside pressure that would work today? The 
Chinese government has grown its ability, like you just 
mentioned, to suppress the dissent within China with their 
enormous expenditures and then also the confidence that comes 
from the international community. When a trade delegation goes 
to Beijing to negotiate access to a market and investment and 
at the same time raises the question of human rights--but not 
waiting for an answer--that sends a very wrong message to the 
Chinese regime, and also, unfortunately, to the Uyghur people, 
too.
    So what I am saying is that at this time, we have long 
passed the time for condemnation. We have long passed that. 
Direct pressure on the people who make those decisions--I'm 
talking about Xi Jinping; I'm talking about the Party chief of 
the Xinjiang Uyghur Autonomous Region--and applying the 
Magnitsky Human Rights Accountability Act--seems, at this 
point, the only resort left for the United States.
    You said we are watching. You know what? Yes, I think the 
Chinese people----
    Representative Wagner. We need to be ``doing'' is what you 
are saying.
    Mr. Kaixi. Yes.
    Representative Wagner. I thank you.
    Mr. Kaixi. Yes, ma'am. Yes.
    Representative Wagner. China has begun implementing a vast 
social credit system, a dystopian system of punishments and 
incentives intended to encourage ``good behavior.'' Ms. 
Kalathil, how did Tiananmen inform the creation of the social 
credit system and how is it being implemented?
    Ms. Kalathil. I think in a broad sense what Tiananmen 
served to illustrate for the CCP was that information was 
something that could be very powerful if used against them, but 
if managed properly could be a powerful asset as well. And so 
in the years following the Tiananmen Square massacre, I think 
the Party was even more careful to try to put in place, well in 
advance, mechanisms that would guide the direction of 
information technology.
    When I was a reporter in Hong Kong, I saw this unfolding in 
the 1990s with the so-called Golden Projects. This pre-dated 
the Great Firewall as we knew it, and then eventually evolved 
into it. And now what we're seeing with the social credit 
system, or systems, because they are still overlapping and not 
quite formulated yet, you do see a vision for social management 
that I think has been there from the beginning. But now the 
tools are gradually falling into place with which to implement 
it.
    I don't think that it's quite there yet. I think that a lot 
of what has been discussed about this system may not be fully 
implemented in reality, but simply understanding the intent is 
useful, I think, because there is really a large possibility of 
wide-scale harnessing of data to manage society in ways that we 
just haven't really conceived of yet. We're starting to see the 
outlines of that now, and I think were it to really be 
implemented both within China and elsewhere around the world, 
it would be truly chilling for democracy.
    Representative Wagner. It is chilling. My time has expired. 
Again, I thank all the witnesses for their courage and due 
diligence. I yield back.
    Mr. Kaixi. Thank you, ma'am.
    Cochair Rubio. Mr. Johnson of Georgia.
    Representative Johnson. Thank you, Mr. Chairman. I want to 
thank all of the witnesses for your appearance here today, 
especially Mr. Kaixi and Mr. Zhou. I am honored to have the 
opportunity to recognize each of you for your lifelong 
dedication to activism and your ongoing commitment to democracy 
and the protection of human rights.
    To family and friends here today, and watching from abroad, 
who lost their loved ones on June 4th, 30 years ago today in 
Tiananmen Square, I want to thank you for your tremendous 
commitment to advocacy and the courage that you demonstrate by 
continuing to tell these painful stories. And we mourn with you 
and will do our part to make sure that our country does not 
continue to slip into amnesia about what happened 30 years ago, 
as the Chinese people apparently have been lulled to sleep.
    The Center on U.S.-China Relations released a report in 
February of this year entitled ``Course Correction: Toward an 
Effective and Sustainable China Policy.'' In that report, it 
was noted that the human rights situation in China has 
drastically worsened, and U.S. efforts to protect and advocate 
for human rights have become less effective.
    Mr. Kaixi, you mentioned about wealth concentration in 
China being among 200 top families. And I'll note that China--
12 percent of the world's billionaires are Chinese, and they 
control about $6.5 trillion in wealth. So while we've seen 
human rights get worse in China over the last years, during 
that same period of time we've also seen wealth being earned 
and concentrated in the hands of the few. That is also 
something that's been taking place in other areas of the world, 
including America. What has been the impact of the 
concentration of wealth, or do you see a parallel or a 
connection between the concentration of wealth and the decline 
of human rights in China? Mr. Kaixi? And I would like to hear 
from the other witnesses on that question, also.
    Mr. Kaixi. Thank you, sir, Mr. Johnson. The general ratio 
in China, perhaps, is one of the lowest; the division between 
poor and wealthy is extreme in China. A financial institution 
from this country, Bloomberg, has calculated the last 30 years 
of economic growth, often referred to by the world as the China 
economic miracle that has accumulated much of that wealth, but 
a good 20 to 30 percent of the wealth of China that has 
accumulated in the last 3 decades went to 200 families.
    So this provides a picture that you can see. A group of 
people, as I earlier described, stole the position of ruling 
this country, and took advantage of that position to loot the 
country. If that is the case, if they are a group of bandits 
and nothing more than common thieves, they will act like common 
thieves, which includes suppressing dissent and hammering down 
everyone who sticks their head up.
    I think there is one lesson here. All human beings 
throughout the cultures of this globe--we all know that there 
is no end to greediness.
    Representative Johnson. Do you see amnesia about what 
happened to China as it was emerging as an economic powerhouse 
and the suppression of human rights along with the 
concentration of wealth?
    Mr. Kaixi. Yes. Amnesia is a medical term that I kind of 
feel a little reluctant to use, because amnesia is something 
you probably cannot really control. But in China, it is the 
systematic wiping out of all the information, and then a lie--
they construct a new so-called ``Communist version'' of 
history. The sole purpose of the Communist Party doing that, 
again, is just to help them ensure their ruling position. So 
yes, it does have a direct link with, of course, human rights 
abuses, and they are totally capable of doing that. And they 
don't care about the values that we are living by today. Thank 
you, sir.
    Ms. Tsui. I would like to add that the accumulation of 
wealth gives the Chinese authorities a very convenient 
narrative to the people. We are strong, you know, we are 
powerful in the country, and if you do what we say, you will, 
people, you will, too, become as strong and powerful as we are.
    Mr. Minzner. I will just follow up on that. I think your 
question is dead-on. I think it's even deeper than just having 
a couple billionaires. Money and power flowed together 
particularly in the 90s and the early 2000s in a very perverse 
way; essentially money and power became linked together. Of 
course, some of it is billionaires being in deep relationships 
with the Party elite. But even more than that, we often think 
that the rise of a middle class somehow changes things. It 
doesn't quite work that way. I think for many people, if you're 
an established urban resident in Beijing or Shanghai, your 
property value has gone up. You work for a state-owned 
enterprise. You see your livelihood tied up very much with 
``the system.'' And one of the things that you're worried about 
is ``those migrant workers.'' You are worried about those 
``others'' in society taking your stuff. And that's a very 
powerful incentive to sort of say, ``I am going to work with 
the system. I am not--you know, why challenge it? Who knows 
what might happen if the cards got reshuffled?'' And that, I 
think, is an even deeper reason why the situation in China 
itself, as to how people view reform or political challenges, 
is very complicated. And one of the main factors is where you 
sit in terms of your own personal wealth.
    Representative Johnson. Mr. Zhou.
    Mr. Kaixi. Mr. Chairman, can I have a question of order? 
The Tiananmen students are going to have a reunion in about 10 
minutes in the Office of Madam Speaker. So can we--Zhou Fengsuo 
and I being the student leaders--we would like to excuse 
ourselves from this hearing.
    Senator Daines [presiding]. Yes, that's fine.
    Mr. Kaixi. Okay, thank you so much, and I think the other 
experts here can give you great testimony as well. And I would 
like to take this opportunity to thank all the members of this 
very important audience. Mr. Yoho, thank you very much for your 
support on Uyghur issues. Thank you.
    Representative Johnson. I thank you and I yield back.
    Senator Daines. Okay, thank you.
    The gentleman from Pennsylvania.
    Representative Perry. Thanks, Mr. Chairman. I was going to 
have a question for Mr. Kaixi, but I think I'll probably just 
go on a rant here instead since you're leaving. I want to 
preface this by saying that any of my comments, because I 
sometimes get passionate, I want to make sure that there is no 
misunderstanding--my comments are about the Communist 
government and not the Chinese people who are yearning to be 
free. And what we're talking about is the consequences.
    Mr. Kaixi, when you talk about how we abandoned you, I 
think it's important when we talk about this anniversary, this 
commemoration of events, the horrific events that happened 30 
years ago today, that we go back a little further than that and 
recognize that we, the United States, abandoned our own 
principles--John Service, Harry Dexter White, working with FDR, 
we chose Mao. We chose Mao instead of Chiang. We chose 
Communism and abandoned freedom. And it's important to 
recognize that because these things can happen yet again today. 
The apologists for Communism, of totalitarianism, work right 
within the halls of this government today, and they have for 
many, many years. And as I listen to my friends on both sides 
of the aisle, I feel like we're all in agreement here. While I 
commend the makers of this legislation and this panel and the 
recognition of what happened 30 years ago and to keep that 
memory alive and the efforts for which so much was sacrificed, 
to keep those things alive, we must not stop at that. And we 
must recognize where we are.
    For every action that China takes in Tibet, there should be 
an action from the United States. In Taiwan, in Hong Kong, when 
they dump their products in the United States, when they steal 
our property, when they threaten their neighbors, when they 
send their Chinese students over here to spy on us and collect 
on us, there must be an action from the United States; more of 
an action than a resolution.
    China has been in a trade war, an economic war, a culture 
war, an information war for decades with the United States, and 
it is long time overdue that the citizens of the United States 
wake up to this fact. We must decide at some point whether 
we're happier with ``made in China'' all throughout our homes 
and all throughout our stores, if it's worth keeping that and 
losing the sovereignty of our nation over time to the Communist 
Party of China.
    With that, I think that Mr. Kaixi talked about some 
concrete actions that could take place; for me, there are many 
more. I think we ought to recognize the government of Tibet in 
exile. I think we ought to establish a consulate in Tibet, in 
Lhasa. I think that we ought to close off the faucets and 
access to the financial markets for the Chinese government, who 
launders dirty North Korean money through Wall Street. I think 
we could do a whole lot more.
    I don't know what we're waiting for, but this is what I do 
know. From the sounds of it, most of the people up here--
Democrat, Republican, left and right, are in agreement about 
how we feel about the Communist Party of China and what's good 
for America and what's good policy. What seems to be slowing us 
down right now is that we love our country, but we can't get 
past this President. And I would say to my friends on either 
side of the aisle, if you have an aversion to this 
administration--finally, finally an administration who is doing 
something about the existential threat, the clear and present 
danger that is China, finally, go on disliking him. Go on 
hating him if you want to, but love your country. I don't think 
the administration's doing enough. So I would urge my 
colleagues on this side of the aisle and on that side of the 
aisle to (1) support the administration where it's appropriate, 
when he is being tough with China; and (2) take the lead. Take 
the lead and say, these are the other things that we could and 
should be doing. The time is right now. It only gets worse from 
here. It only gets worse. With that, Mr. Chairman, I yield 
back.
    Senator Daines. Thank you. The gentleman from Florida.
    Representative Jackson Lee. Excuse me. Do you go back and 
forth?
    Representative Yoho. I will yield.
    Representative Jackson Lee. Thank you for your courtesy.
    I am a member of the Tom Lantos Human Rights Commission, so 
my name is not here. It is Sheila Jackson Lee and I thank the 
distinguished gentleman from Florida for yielding.
    I want to acknowledge the gentleman who had to go on to a 
meeting with the Speaker, and I also want to acknowledge the 
Speaker. All of us have been witness to the leadership that she 
has given to this issue and how appalling it is that she has 
had to be involved in this issue for so very long. In 2009, she 
and a delegation were brave enough to go into Tiananmen Square 
and unfold that banner and honor those that lost their lives.
    I hope that we--and I would appreciate all three of you 
answering in snippets, if you would--that we appreciate that 
lives were lost during that period of time and that the coverup 
did not help anyone. I want to say this. We are blessed with a 
body of Chinese Americans who are here in the United States, 
brave Americans who have fought in our wars, who are leaders in 
industry and education, in social services, and immigration 
work--and are friends of so many of us in our constituencies.
    I think this is where we have a severe problem, and that is 
that we have not--and I heard one of my colleagues say--we have 
not sufficiently educated the body politic that can help us.
    Certainly, there are Chinese Americans who are from Taiwan 
who have a different perspective. But most times in issues like 
this, the advocacy of the indigenous population from that 
country who are now citizens can be very helpful. So I want to 
put that on the record and say that we have, I think, 
collectively not done a good job in doing that.
    The other is, I've been to Tibet and it is now 2020, and 
we're still facing the discrimination of that. Falun Gong, many 
people know, whatever your opinion is, has also suffered 
religious discrimination. We don't know how many people are 
political prisoners or religious prisoners.
    So here's the question that I want to raise--how do we 
penetrate and increase advocacy? The very fact that China has 
moved on an innovative development pathway, for example, the 
pathway to China--that's not the exact terminology--it's the 
second largest economy in the world. We are number one; they 
are fast approaching. They take pride in that. President Xi 
takes pride in that, which leads not only to the failures of 
this administration for a trade agreement, but obviously 
President Xi has his contributions to that.
    The economy plays a heavy role in its image of everyone 
wanting to be China's friend, and at the same time, people are 
dying. We have to penetrate that. I'd be interested in your 
viewpoint on how we pierce that and how we raise the concern of 
Chinese Americans who are barons of industry here, who are 
leaders, and who--let me not label everyone, but whose voices 
are not heard particularly on that issue.
    My last point is that what is being done to the continent 
of Africa is more than sinful. It is disgraceful. To the 
African presidents, you need to listen--you are doing a 
disservice to the continent. You are taking resources and none 
of it is translating to the vast numbers of Africans who are in 
need of partners. They're not in need of owners. And that is 
what's happening between China and Africa. Owners are trying to 
own Africa and not partner with Africa.
    I would appreciate you answering those questions, just the 
two questions about the economy. Thank you.
    Mr. Minzner. I can try. Yes, I thought you made a very good 
point at the beginning which I sort of heard as a question. 
I'll respond to it because I think you made the point that 
relations, clearly, between the United States and China, are 
getting tenser, and they are going to continue to get more 
tense and deteriorate over the future.
    One of the key questions for folks in power in the United 
States is, are the tensions between the U.S. and China, or the 
Chinese Communist Party--are they tensions between the U.S. and 
China as a country, or are the tensions between the U.S. and 
the Chinese people? I heard both you, Congresswoman Jackson 
Lee, and a couple other Members mention as well, underline the 
point that the dispute right now is not with the Chinese 
people. There are voices in Washington right now that want to 
paint this as a civilizational challenge or something like 
that. I think we clearly have to resist that. That's not the 
America that we know, and it plays directly into the narrative 
that an increasingly paranoid Chinese state is attempting to 
use to mobilize support among its own nationalists, its support 
among its own people.
    So being very clear about exactly what our challenge is, I 
think that's crucial. And I really appreciate that all of the 
folks that I heard speak here reiterated specifically what the 
American Government's dispute is. I'll stop there.
    Representative Jackson Lee. To the other two witnesses, 
remember what I said about Chinese Americans, how we get them 
engaged? Thank you.
    Ms. Kalathil. I can say that I really appreciate that 
question and I would also associate myself with my colleague's 
remarks that we must clearly distinguish between the CCP and 
the Chinese people and people of ethnic Chinese descent all 
around the world. Unfortunately, it is a deliberate policy of 
the CCP to try to reach into those communities around the world 
and suppress authentic speech and discussion around CCP 
policies. And so essentially what we're facing is a global 
information environment in which there is preemptive closing of 
discourse, of free and open discourse and debate, about CCP 
policies. So that is an incredibly tough environment in which 
to try to bring a more accurate message or more accurate 
information.
    When I was recently in Ghana for a series of meetings, a 
few interlocutors said that they had plentiful contacts between 
the Chinese government and their own societies and that 
increasingly they saw their own paths as being framed as a 
divergence between essentially economic development or 
democracy. And that is in keeping with the China model that is 
being presented around the world, including in sub-Saharan 
Africa.
    Interestingly enough, those interlocutors, many of whom 
were active in the democracy and human rights space, said this 
narrative is completely wrong. As we understand it, the choice 
is not between development and democracy, but between 
dictatorship and democracy.
    The model that's being presented is essentially a false 
choice. And we understand this, but unfortunately the narrative 
that is being presented is so overwhelming and it's being 
presented quite successfully, including through preempting 
alternative modes of discourse and alternative pieces of 
information, that it's very hard to get another message out 
there to talk about the fact that you are deciding between 
dictatorship and democracy, not development and democracy.
    Just to reiterate a point I made before, I think it's 
imperative that the democracies who support more free and open 
discussion of CCP policies really be there, and to be present 
in that, and to not, essentially, simply through passive 
inaction allow the CCP to dominate the frames for debate within 
developing countries all around the world.
    Representative Jackson Lee. Thank you.
    Ms. Tsui. I think that the point that you raised about 
getting Chinese Americans involved in this country is an 
excellent point. I'm an immigrant. Among Chinese immigrant 
friends I tend to notice an attitude of ``Oh, you know, that is 
the Chinese government. What can you do about it?'' I think 
that a lot of people have been conditioned, culturally 
conditioned into the state of ``Oh, there's nothing we can do. 
The Chinese government is like that.'' And of course that 
condition is politically exploited by the Chinese government.
    I think that one way to address it is that I ask my 
friends, ``We live in this country. We live in a country where 
we can exercise our fundamental rights to freedom of 
expression. While you avail yourself of this freedom, why can't 
we do more for the people in China?''
    Representative Jackson Lee. Thank you very much. Mr. 
Chairman, let me thank my friend from Florida for your kind 
yielding, and I look forward to all of us working on these 
issues together. I think the last witness has shown us another 
effort in our own communities to work with Chinese Americans. 
So I thank you.
    As I close, let me acknowledge a young lady that is here 
with me, Mr. Chairman. Nileh Irsan, who is with the Foster Care 
Program shadowing us today, is sitting behind me, and we are 
just delighted that these young people are learning about civic 
government and democracy, and the great work of Republicans and 
Democrats. This particular body is showing that we work 
together on crucial issues because we love our country.
    I thank you for giving me the courtesy of yielding at this 
time. I yield back and I thank the witnesses. And those who 
were from Tiananmen Square, alum, tragically--if you will--I 
honor them as well today. Thank you. I yield back.
    Senator Daines. Thank you, Congresswoman Jackson Lee, and 
welcome. You get a great view from back there as well. Thank 
you.
    The gentleman from Florida.
    Representative Yoho. Thank you, Senator. I appreciate it. 
Good to see you again.
    I want to start off with a statement and that is, China and 
Xi Jinping are highly insecure and paranoid as a country and as 
a leader, and they are paranoid and insecure of free-thinking 
people. The Communist Party cannot survive via a people that 
can challenge government. That is why Hong Kong, Tibet, the 
Uyghurs, and Taiwan are a threat to them, and why they can't be 
allowed to succeed in China's Communist Party's eyes; because 
they are free thinking.
    For clarification, do people in China believe as we do in 
this country and other Western democracies, in the innate 
genetic makeup of people in liberty and freedom, the desire to 
be self-ruling? Do they believe that in China today?
    Ms. Tsui. It is hard to say because as I mentioned earlier, 
a lot of people have been culturally conditioned and 
politically exploited.
    Representative Yoho. I understand that, but deep down 
inside--when you talk to people from China, do they believe in 
the same beliefs we do? Because if you plant an acorn, the way 
it's designed is the trunk grows up, the roots grow down. 
That's just the way we are designed. And I think people--if you 
believe in what we believe in--we have the desire to be free, 
self-determining, and we are blessed in this country that our 
Founding Fathers got it right. So that innate ability, when 
I've talked to people from around the world, I hear the same 
thing: ``Of course we do.'' Not what they are conditioned to 
do, but what they truly believe.
    Ms. Tsui. I can point to the example of Taiwan. People in 
Taiwan are Chinese people of Chinese descent and they obviously 
thrive in a democracy.
    Representative Yoho. Right.
    Ms. Tsui. So there's no essentialist argument that Chinese 
people on the mainland do not believe in democracy.
    Representative Yoho. Okay. I think it's true around the 
world. Realizing the mistake of the past administrations, I 
look at Nixon and Kissinger with opening up China, I look at 
Clinton with the WTO, hoping China would evolve into a modern, 
democratic, market-driven society, and it didn't happen.
    And so we have to change course today, because China went 
from being a very bumbling, stumbling adolescent--as they grew 
in wealth, they didn't know how wealthy they were. And then 
they came into puberty, and their testosterone kicked in and 
they don't know how wealthy they are, or how strong they are, 
and they're flexing that muscle to try to find out their place.
    In Tiananmen Square--and I appreciate the people that were 
here and you guys talking about this. There is a convicted 
activist, Dong Shengkun, in 1989 given a suspended death 
sentence on arson charges, and he spent 17 years in prison. A 
fellow protester in freedom, he said that he would prefer to 
have his son think he is a regular criminal--at least in the 
current political climate in China--than be potentially put in 
danger by learning of his father's political past. ``It is for 
his safety,'' Dong said. ``I worry that I might influence his 
thought if I start chatting to him about those things.''
    Other former political prisoners have expressed concerns 
about talking to their children about the massacre for fear of 
putting them at risk.
    This goes on and says that three decades after the Chinese 
government declared martial law and unleashed the military on 
unarmed students and worker protesters, the bloodshed has been 
largely erased from the nation's collective memory. The 
Communist Party-led efforts have created a generation who are 
mostly unaware of the Tiananmen Square massacre. School 
textbooks don't mention it, and students will not find photos 
or stories on June 4th on China's heavily censored internet. So 
they're erasing history just like they are doing with the 
Tibetans. They are going to do it with the Uyghurs.
    I guess one question I have, a direct question is, what is 
the estimate of the number of Uyghurs held against their will 
in Xinjiang, or China in total?
    Mr. Minzner. If you are asking about the number of people 
who have been held in the political reeducation camps that have 
been established since 2017, the estimates vary. The ones I 
have seen--about 10 percent of the population, hundreds of 
thousands to upwards of a million.
    Representative Yoho. I have got a paper here that says 
there may be up to 3 million. We don't know.
    Mr. Minzner. I have heard that statement too. I don't know. 
It's a very large proportion.
    Representative Yoho. If these are reeducation camps, are 
people free to come and go as they choose?
    Mr. Minzner. No, this is compulsory.
    Representative Yoho. It is compulsory.
    All right, how often are the armed crematoriums used? Any 
idea?
    Mr. Minzner. I don't know that.
    Representative Yoho. All right. I found it very disturbing 
that when we read the advertisements for the guards for the 
armed crematoriums, they must be physically fit and capable of 
fighting. It doesn't sound like it's a pleasant thing, and so I 
think we are seeing a repeat of history here.
    Moving on, I think what I see that needs to happen as a 
policy, because we want correction--our trade policies need to 
change. Our trade policies need to change, and what I propose 
for this country is to look at how we trade with China. I think 
we need to look at putting them in a tiered trading system. All 
of our policies--the best trading systems, they go to tier one. 
They get the best deals. The ones that are less favorable, 
number two. The minimal trade deals are at tier three. And I 
think we need to put in all things--corruption of government, 
human rights conditions, and I think we should change that 
immediately.
    The other thing--and I am going to end with this, Mr. 
Chairman--is that right now, we have all of our manufacturers 
flocking to China. Fortunately, some of them are waking up. Our 
proposal that we promoted for the last year and a half is to do 
the ABC policy, and that is manufacture ``Anywhere But China.'' 
I know they have a market of 1.3 billion people, but the last 
time I counted, I think there are close to 6.7 billion people 
outside of China. I would focus on that market. And I think if 
we get China's economic attention, I think we can help change 
the way they treat people, and then knock them down on a tiered 
trading system. Until we do that they're going to continue to 
grow, and I fear for what will be down the road.
    Mr. Chairman, thank you.
    Senator Daines. Thank you, Congressman Yoho.
    I want to thank the witnesses for coming here today before 
this commission and really helping us reflect on what I think 
could be called a horrendous moment in history. I want to take 
a moment to express my sorrow for the men, the women, their 
families, who lost their lives 30 years ago for standing up for 
what they believe in and trying to create a better world.
    I distinctly remember that day, as those of us who remember 
watching TV, watching Mike Chinoy there in Beijing with that 
one feed they had, CNN, and watching the horrors unfold in 
front of the entire world. As someone who spent over five years 
living in China, I was working in the private sector, an expat 
in Guangzhou. In fact, our two youngest children were born in 
Hong Kong. I've led multiple codels to visit China and some of 
its neighbors over the past four years. I have traveled to 
places across China, including Xinjiang, in Urumqi, to Tibet, 
seen the Buddhist monks, to Dandong on the North Korean border. 
It's allowed me to see firsthand the human rights abuses, 
censorship, and the challenge that the Chinese people face, as 
well as the efforts made to extend their influence beyond their 
borders. As your testimonies, this commission, the State 
Department Human Rights Report, and numerous others indicate, 
the state of basic freedom in much of China is in dire straits.
    It is important that we, as a nation founded on freedom and 
the rule of law, bring our influence to bear to stop the 
repression of basic human rights in China.
    Professor Minzner, we've not seen a specific incident 
similar to Tiananmen in the past 30 years, but the Chinese 
government's resolve to repress basic freedom is stronger than 
ever. How has Beijing changed their repression of basic rights 
from using traditional armies in 1989 to using advanced 
technology today?
    Mr. Minzner. I think with respect to that, if you are 
asking about the evolution of repression, first I will point to 
some of the points that my co-panelist made with respect to the 
technological evolution in terms of more savvy control over 
media and over the internet. That's one core aspect. I think 
the other thing to realize is that there's also been a large 
co-option. There are large segments of Chinese society that 
feel that their wealth and their livelihood is tied up with the 
system--property values, their pensions. And I think that's 
another key source of, you know, you don't need to repress 
people if people feel that the system is giving them benefits 
and is giving them a better life, and if you worry that the 
failure, that the collapse of the system would endanger your 
own livelihood. So I think the combination of those two things 
is probably the most effective tool that the Party uses to 
maintain control.
    Senator Daines. Do you want to add to that?
    Ms. Kalathil. No. I would agree with those points and that 
often those mechanisms of control, while they are connected to 
technology, can frequently take place within the wider swath of 
society--that it really relies, essentially, on intimidation 
and an acceptance of principles, self-censorship, so people do 
not express themselves. And the red lines that you're not 
supposed to cross sometimes are internalized. They're not 
necessarily solely expressed through the Great Firewall, and so 
on.
    Senator Daines. Professor Minzner, are you aware of any 
dissent among China's leaders about China's violations of human 
rights across the country, and more specifically in Xinjiang?
    Mr. Minzner. You ask the question, is there any dissent 
among Chinese leaders themselves? None. No. I think that it's a 
black box. We really don't know what is going on at the top, 
but I cannot imagine--I haven't heard and I can't imagine any 
serious pushback with respect to those policies.
    I mean the principle of Beijing needing to have a firm hand 
over society is very well established at the top level of the 
Party. That being said, I do think there are rumblings. I think 
some of the more recent moves about potential lifetime rule for 
Xi, the anti-corruption campaign, that's the type of stuff that 
does generate internal rumblings among top-level authorities 
because they're worried about their own possible future. But 
that's a very different question from exercising a heavier 
military and police presence in Xinjiang. People are on board 
for that, I think.
    Senator Daines. Ms. Tsui, prior to arriving in Xinjiang in 
2016, the Communist Party Secretary Chen Quanguo was Communist 
Party Secretary of Tibet where he pioneered a grid system of 
police management over urban areas, including the installation 
of hundreds of ``convenience'' police stations. How do Chen's 
policies in Xinjiang resemble those in Tibet? And how do they 
differ and why?
    Ms. Tsui. I am not an expert on Xinjiang, but my 
understanding is that he was chosen to go to Xinjiang precisely 
because of the successes he's had in Tibet. So my understanding 
is that the surveillance is near total. In the streets of 
Xinjiang you actually see very few people who are there who are 
not supposed to be there. And I think that it's very 
unfortunate that that system has been working so successfully.
    Senator Daines. So Beijing continues to claim that they're 
offering reeducation centers to Uyghurs in Xinjiang, even going 
as far as comparing them to universities across the rest of the 
country. However, we know there's clearly a weak coverup going 
on here, as they are using them as a tool for repression.
    Can any of you share stories, if you had a chance here to 
share perhaps the most poignant story of what really goes on at 
these camps, to help enlighten the public about the atrocities 
going on in the region?
    Ms. Tsui. I heard that Dolkun Isa, who is a Uyghur activist 
in exile--he lives in Germany; last year he found out about his 
mother's death six months after she had died. She had died in a 
reeducation camp and she was in her eighties. And the reason 
why he found out six months later was that nobody in the family 
even dared contact him, because the act of contacting someone 
like Dolkun Isa would invite arrest and detention.
    Senator Daines. Other comments?
    Ms. Kalathil. I'm not an expert on this, but I would 
recommend that people watch the video stream of the event 
yesterday at the National Endowment for Democracy, which 
featured Dolkun Isa talking about some of these experiences and 
also incorporated other experiences of people from Tibet and 
Xinjiang and other places.
    Senator Daines. Great. Thank you.
    Well, I have exhausted my time and it looks like we have 
exhausted all of the witnesses as well as the Members here. And 
so, as sitting Chair here, I am now going to gavel out this 
meeting. Thank you for coming today. Thanks for your courage. 
And thanks for your articulate testimony.
    We're gaveled out.
    [Whereupon, at 12:52 p.m., the hearing was concluded.]

   
      
=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Wu'er Kaixi

    Ladies and gentlemen of the committee, Senators, Members of 
Congress, and through you, the freedom-loving people of the United 
States of America, it is a great honor to return to what I call the 
``Chapel of Democracy'' on Capitol Hill, at the invitation of the 
Congressional-Executive Commission on China, and the Tom Lantos Human 
Rights Commission. It was the Honorable Mr. Lantos himself, may he rest 
in peace, who invited me here three decades ago, after the torch of 
democracy that we lit in Tiananmen Square was brutally extinguished and 
I began my life of exile.
    ``Wu'er Kaixi is here to remind us that the struggle for democracy 
in China is not over,'' is how Mr. Lantos introduced me at that 
hearing. Those words still ring true, perhaps truer now than ever 
before. I said then that the Chinese Communist Party could not be 
trusted and was an existential threat to freedom and democracy around 
the world. It gives me no pleasure to say now that ``I told you so.''
    I was called a ``lover of democracy'' at that Congressional Human 
Rights Foundation hearing, though many people have asked me since, 
``What do you know about democracy?'' It's true that when we student 
leaders led the mass democracy movement in Beijing, our knowledge and 
understanding of democracy was often limited to its face value and 
textbook doctrines, because we were from a Communist totalitarian 
regime. But that is precisely why I am a lover of democracy and longed 
for it, because I know what it's like not to have democracy and 
freedom. It is the most precious of gifts and we must never take it for 
granted.
    That's why I have returned to this ``Chapel of Democracy,'' to warn 
you once again that democracy is under attack. As the standard bearer 
and defender of democracy, it is your solemn duty to protect it. I also 
have to tell you that the light of democracy in China was snuffed out 
because you let us down. . . . You betrayed us.
    Instead of supporting the students and people on the streets, who 
were prepared to die in the cause of a nascent democracy movement in 
China, your leaders chose instead to engage with the Communist regime. 
You did so to protect your own interests and for commercial reasons. 
You led, and the world inevitably followed.
    Even so, ultimately, I firmly believe in the spirit of American 
democracy. I know you will in the end correct the mistakes of the past 
to create a better future. My definition of democracy is ``not 
trusting,'' and constantly exercising democracy, until we arrive at the 
right judgment and choice. This is what I want for the people of China.
    I still mourn the loss of friends, fellow activists, and family. As 
a survivor I keenly feel the guilt and pain that belongs to the captain 
who didn't go down with his ship. Though it was a great thing that we 
tried to do, I sometimes wonder whether I would do it all over again. 
The cost was too great, measured in the blood spilled by my fellow 
countrymen.
    We made the ultimate sacrifice and stood with you to inspire 
victory in the most challenging battle of the 20th century, against the 
totalitarian Communists in the Cold War. Yet, in China, we are still 
waiting to taste the fruit of that victory.
    I don't want to return to this ``Chapel of Democracy'' in the 
future and say, ``I told you so,'' or once again remind you of the 
lessons of the past. With our shared conviction in the power of 
democracy, I hope that we can at last write a fitting conclusion to the 
story that started 30 years ago with the Tiananmen Square protests. 
China deserves democracy too.

What are the lessons of Tiananmen Square?

    It was 30 years ago that we took to the streets of Beijing and 
earned the world's sympathy and respect for attempting to plant the 
seeds of freedom and democracy in Tiananmen Square. We humbly asked 
China's leadership to fulfill their promises to the people because in 
those heady days everything seemed possible.
    Democracy was flowering in Poland and the ``New Thinking'' of 
Mikhail Gorbachev was creating excitement in the Soviet Union. In 
China, it was the beginning of ``Opening up and Reform,'' and the 
people were anxiously waiting for it to expand into the political 
domain, as we were promised.
    As a 21-year-old student leader, marching on the streets of Beijing 
and occupying Tiananmen Square, we not only had the support of the 
Chinese people, we had support from all over the world, particularly in 
democratic countries. Clearly we felt we were fighting for the same 
thing you had fought for and live by. It felt like history was on our 
side, and victory would be ours too.
    But history records that this wasn't the path for China at that 
time. On June 4, 1989, the Chinese Communist Party sent in tanks and 
troops to massacre the people it claimed to represent. In order to save 
its own skin, the Communist Party brutally suppressed freedom of 
expression and crushed all dissent. It has continued to rule since 
then, at the barrel of a gun, using fear and lies.
    The support we had didn't last, and we, the Chinese democracy 
activists, were abandoned to our fate. Mentioning Tiananmen became an 
inconvenience for the leaders of the world's democracies. We were 
betrayed.
    Naturally, today's world leaders are not responsible for the 
mistakes of their predecessors. But if you ignore the lessons of the 
past and continue to look the other way rather than hold the Communist 
Party accountable for its crimes, it will be too late to say or do 
anything about it--and this looks suspiciously like a policy of 
appeasement.

Why do you think the Chinese democracy movement was betrayed?

    The policy of engagement with China started in the early 1970s, 
with Henry Kissinger. As the chief architect of this policy, he 
insisted that it was in the national interest of the United States to 
form a united front against the number one enemy of the country at the 
time, the Soviet Union. Certainly, there was no moral foundation for 
being so accommodating to the one-party Chinese regime.
    When the Chinese leadership massacred its own peacefully protesting 
people, would this policy be altered? No, it wouldn't. Not only did it 
take four days for the late President George H.W. Bush to condemn the 
atrocity, he secretly went to Beijing not long after. Later that very 
same year, the Berlin Wall fell, and soon after, the Soviet Union 
collapsed.
    The Cold War, lasting four decades, had ended. The national 
interest that Mr. Kissinger proudly proclaimed he was protecting had 
expired. Yet the policy remained, and Mr. Kissinger was received as one 
of Beijing's greatest friends and became rich by brokering favored 
access to the China market for American companies. I have waited a long 
time for the United States to realize there is something fundamentally 
wrong with this picture. Perhaps it is only now that a businessman-
president finally sees it?

How would you describe the China situation now?

    With the accession of Xi Jinping to the Communist Party throne we 
are stepping back into the past, as it appears he intends to make 
himself emperor for life. If the policy of engagement with China was 
just about money, it's a bad strategy. Flush with funds, China is 
buying influence around the globe through its Belt and Road Initiative 
and turning countries into tributary states that avoid antagonizing the 
dragon for fear of its displeasure.
    We have discovered that technological progress in the hands of the 
Communist Party is not a benign influence. China has blocked the free 
flow of information by building a ``Great Firewall.'' It bans Google 
and Facebook and any other source of information it cannot totally 
control. This leaves domestic companies with state ties like Huawei, 
Tencent and WeChat a competition-free environment. The Party uses 
companies such as these to build a surveillance state for its own 
people, like no other before in history.
    My family is from Xinjiang and I am ethnically Uyghur, so it's 
natural for me to feel empathy for this region of China where at least 
1 million people have been thrown into what are euphemistically called 
``reeducation camps.'' In any other era or country, they would be 
called what they are, concentration camps. This is the biggest mass 
incarceration of a group based on their ethnicity or religion since the 
Holocaust.
    The supposedly autonomous state of Tibet has also suffered at the 
hands of the Communist Party. Its religious freedom has been curbed and 
tens of thousands of Tibetans have been detained or have fled the 
country and live in exile, like His Holiness the Dalai Lama. Similar to 
Xinjiang, it is being sinicized, as the ethnically dominant Han move in 
and take over these once independent lands.
    Freedom is retreating in Hong Kong despite China's promises to 
safeguard its democracy until at least 2047. A new extradition bill 
meaning Hong Kong can transfer fugitives to China is just the latest 
example of how the city is losing its soul and being rapidly 
assimilated within the mainland. Hong Kong was a city of the world, but 
it has lost her to the totalitarian Chinese regime because of that 
policy.
    Any individual who sticks his head up is hammered down. People 
sometimes forget that the Nobel Peace Prize winner, Liu Xiaobo, 
returned to China to support the Tiananmen protests. His only crime was 
being a human rights activist, yet he was imprisoned for much of his 
life, before dying two years ago from cancer. He was an exceptional 
individual, a teacher and friend from my student days, but he is only 
one of millions who have been scourged by the Chinese communists.
    There is a tendency in democratic countries for its leaders to give 
China the benefit of the doubt. I have heard you justify one-party rule 
by reasoning the country is so massive or unique that ``special 
conditions'' should apply. You make excuses or try to minimize the 
China threat by saying it has not fought a war in more than 30 years 
and is not an expansionist power. But this ignores the facts.
    Just ask the majority of nations that border the South China Sea, 
which China almost totally claims as its own, despite the United 
Nations Convention on the Law of the Sea ruling against it in 2016. 
China flouts international maritime conventions and illegally occupies 
islands, turning them into military outposts that threaten Vietnam, the 
Philippines, and other nations, too.
    If you ask the majority of people in Taiwan if they feel threatened 
by China, or whether it is an expansionist power, you would be met with 
a resounding answer in the affirmative. China constantly threatens to 
invade Taiwan and prevents it from joining international organizations, 
even the World Health Organization, despite the fact it has one of the 
world's best public health systems and so much to offer.
    By any measure, Taiwan is one of the most freedom loving and 
democratic countries in the world, a bastion of free speech and an 
example to others. Yet China intends to possess the country by hook or 
by crook and promises violence if anyone suggests different, or even 
calls Taiwan by its real name.
    You, the leaders of the free world, acquiesce to this bullying and 
ignore the inconvenient truth, which is that Taiwan is in fact a 
successful, independent country, with its own army, currency, 
government and people. If this is not appeasement, I don't know what 
is.

What should be done to put right the mistakes of the past?

    Three decades ago, if you had acted on principle and with 
foresight, you would have demanded that China acknowledge its crimes in 
Tiananmen Square. You should have insisted on press freedom, capitalism 
and democracy. If China refused to reform, the whole world would have 
followed as you blocked it, and it would be a better place now. Not 
only for a fifth of the population who are Chinese but the rest of the 
world, too.
    This is certainly what the Honorable Mr. Tom Lantos believed and 
loudly declaimed, time and time again, as chair of the Congressional 
Human Rights Caucus, now known, of course, as the Tom Lantos Human 
Rights Commission.
    It is because I spoke up for freedom that I became a ``public 
enemy'' and have been a ``wanted person'' most of my life. I haven't 
seen my parents for over three decades and they are elderly and 
becoming frail now. I have tried my utmost to see them and even turned 
myself in at Macau, Hong Kong, and Chinese embassies in the United 
States and Japan. Ironically, despite my ``wanted'' status, the regime 
would not relent.
    On the other hand, I doubt I would be alive today if I had remained 
in China. After Tiananmen, I was lucky to escape and make it to free 
Hong Kong, long before it was handed over by the British to China. I 
then moved to France, the ``cradle of democracy,'' where I helped 
organize an international underground movement to assist Chinese 
dissidents and continue the struggle for democracy. Later, I was 
fortunate enough to be allowed to study in the United States, the 
world's leading democratic nation. Taiwan is now my adopted home and a 
shining beacon of democracy and human rights, the first country in Asia 
to allow same-sex marriage.
    I have been lucky enough to live in some of the freest places on 
Earth and have had 30 years to absorb the ideas of democracy. In that 
time, I have been labeled a democracy activist, and it is a badge I 
wear with immense pride.
    As I have made plain today, I feel the democracy movement in China 
and democracy itself was betrayed, betrayed by you. But, as I also made 
clear in my introductory remarks, this argument is based on my strong 
faith in American democracy. I firmly believe you will in the end 
correct the mistakes of the past to create a better future.
    In my experience, democracy is not a religion or a set of 
standards, it's a practice, a dynamic process, constantly refined and 
improved. It's not perfect but it always aims for perfection. It makes 
mistakes, but through voting allows choice and change and the 
opportunity to put right the mistakes of the past. Democracy cautiously 
trusts the people, and the will of the people is expressed through the 
democratic process. This is a very powerful and virtuous idea.
    I truly want to believe that the world's leaders, including those 
here today, are wise enough not to repeat the mistakes of yesterday. I 
trust you have the courage to face up to China before it's too strong 
and it's too late. This would, at long last, make our bloody sacrifice 
in Tiananmen 30 years ago worthwhile.
                                 ______
                                 

                   Prepared Statement of Zhou Fengsuo

    Congressman McGovern, Senator Rubio, Members of Congress, thank you 
for inviting me to speak in this special moment on the 30th anniversary 
of the Tiananmen Massacre.
    As a participant in the 1989 Democracy Movement and a survivor of 
the massacre started in the evening of June 3rd, it is both my honor 
and duty to speak for those who sacrificed their lives for freedom and 
democracy in China, for the movement that ignited the hope of change 
that was so close, and for the last 30 years of the indefatigable fight 
for truth and justice.
    I was a physics student at Tsinghua University in 1989. The 
previous summer of 1988, I organized the first and only free election 
of the student union of my department. I was amazed and encouraged by 
the enthusiasm of the students to participate in the process of self-
governing. There was a palpable sense of change on the college 
campuses.
    When Hu Yaobang died on April 15, 1989, his death immediately 
triggered widespread protests at top universities in Beijing. He had 
been removed from the position of General Secretary of the CCP in 1987 
for his sympathy towards the protesting students and for being too open 
minded. The next day I went to Tiananmen Square to offer a flower 
wreath with my roommates of Tsinghua University. To my pleasant 
surprise, my words on the wreath were published the next day by a 
national official newspaper. We were the first group to go to Tiananmen 
Square to mourn Hu Yaobang.
    More and more students came to Tiananmen Square to mourn Hu Yaobang 
on April 17th. And the topics quickly changed to broader political 
issues. On April 18th, a petition of 7 demands was drafted and 
submitted by Peking University students. Among these 7 demands, the 
most important ones were freedom of the press and disclosure of the 
assets of top government officials and their families. The petition 
quickly gained support from students and people of Beijing and other 
cities.
    On the evening of April 18th, when hundreds of students gathered at 
the base of the Monument to the Heroes of the People, I gave a speech 
criticizing the Chinese Constitution as against the Declaration of 
Independence, which was the true model of a legitimate government. I 
believed that the Chinese Constitution wasn't legitimate because it 
lacked the consent of the people. I was pushed down from the impromptu 
podium by the organizers because my opinion was considered too radical. 
But I was thrilled because I was able to share my deeply held belief 
with the public in this special arena of people's opinions.
    When thousands of students of Tsinghua University gathered on the 
evening of April 21st, I volunteered to lead the group to Tiananmen 
when I realized that there was no one else willing to stand out to be 
responsible for the protest. From that time on, I became a leader of 
the independent student organization at my university, eventually 
representing Tsinghua University at the Federation of Independent 
Student Unions. For this reason, I was ``wanted'' by the Communist 
government after the crackdown; number 5 on the ``most wanted'' list.
    When the demand for direct dialogue with the government wasn't 
making any progress despite several marches of students joined by 
citizens of Beijing, hundreds of students went on a hunger strike in 
Tiananmen Square. I didn't go on a hunger strike but organized the 
student volunteers to provide for and protect the students. For this 
process I built the broadcast station ``the Voice of the Student 
Movement,'' which became the command center of the protesters as well 
as the public forum for the people in Tiananmen Square. We were able to 
make sure that while a million people were occupying the Square, 
medical services and supplies were delivered without a glitch.
    For the first time in Communist China, millions were able to speak 
truly and freely. It was the most peaceful and hopeful time; democracy 
was so close, almost within reach. The protests brought out the best in 
people's hearts. The prospect of a democratic China resonated through 
the world, especially riveting people from Hong Kong and Taiwan.
    But the Communist hardliners felt the threat to their absolute 
power and reacted with brutal power. Deng Xiaoping first mentioned 
killing the students on April 25. His personal verdict became the April 
26 Editorial, which made it clear that they would crack down on the 
peaceful protesters. On the evening of May 19th, martial law was 
declared in Beijing. Zhao Ziyang, the nominal leader of the CCP, was 
ousted without due process because he was against the military 
crackdown.
    When the citizens of Beijing saw the military trucks and armored 
vehicles, they lay down on the road to block the advancing troops. They 
pleaded with the soldiers, sometimes with kids on their shoulders to 
show that Beijing was peaceful. Initially, the troops had to withdraw. 
For two weeks. The students called for an emergency meeting of the 
People's Congress to intervene, with enough qualifying signatures of 
the legislative members collected.
    On the morning of June 3rd, while at my dormitory at Tsinghua 
University, I heard that a truck full of weapons was somehow in the 
hands of students before the students returned the truck to the police. 
Realizing that this was a sign of an imminent crackdown, I went to 
Tiananmen Square and stayed until I was driven out by troops and tanks 
on the morning of June 4th.
    I stayed at Tiananmen Square because it was the center of the 
protest, and therefore considered the most dangerous place. But it 
turned out to be the eye of the storm. While CCP's over 200,000 troops 
invaded Beijing from all directions, the people of Beijing poured into 
the streets to block the fully armed soldiers with their bodies. We 
were protected by these courageous citizens.
    Beginning from about 10 p.m. until morning, with the news of people 
injured and killed, I heard gunshots from all directions around 
Tiananmen Square. Military flares lit up the night sky. It was like a 
war; Beijing was invaded by CCP's troops with tanks and machine guns, 
while the other side were students and citizens defending the city and 
a dream for a democratic China with their bodies and hearts.
    I was the last to leave the Monument from the south side when the 
soldiers began to push us down, beating us with sticks and pointing 
guns at us. The tanks were about ten feet from me. Daylight was 
breaking on the Square, which was like a war zone. When I heard the sad 
cries of the despondent students, I vowed that we would come back in 
triumph over the brutal force of the CCP. On the way back, I saw more 
than 40 bodies on the ground in the bicycle shed outside of Fuxing 
Hospital and was overwhelmed by injuries and death. One of them was 
Zhong Qing, a student at my university, Tsinghua.
    On the evening of June 13th, I saw my name on the most-wanted list 
of students, broadcast on national TV. I was number 5 among the 21 
most-wanted students. I was shocked because I was only acting out of my 
duty as a student and citizen, at the same time deeply proud of myself 
because I believed that the 1989 Democracy Movement were the greatest 
days of China under Communist rule and it was an honor to officially be 
recognized for my part. I was arrested and spent a year in prison, 
released on the eve of the U.S. debate on most-favored-nation status 
for China. For me this was just the beginning of my journey over the 
next 30 years.
    I came to the United States in 1995 after being denied a passport 
for several years. In 2000, I was the lead plaintiff in a lawsuit 
against Li Peng for his crimes against humanity in 1989, filed in 
Manhattan when Li Peng visited. I was an early supporter of 64memo.com, 
the online archive of the history of the Tiananmen Movement started by 
Feng Congde. I co-founded Humanitarian China in 2007 with other 
participants of the 1989 Democracy Movement abroad. Humanitarian China 
is dedicated to promoting human rights and civil society in China. For 
more than a decade, Humanitarian China has provided humanitarian aid to 
hundreds of families of political prisoners and the Tiananmen Mothers, 
covering rights lawyers, journalists, writers, labor and feminist 
activists, political protesters, and persecuted house churches. 
Humanitarian China raised funds for Ilham Tohti, the Uyghur economist, 
after he was sentenced to life in prison.
    Humanitarian China supported the victims of earthquakes in Sichuan 
and the Yushu Tibetan area through local volunteers. Humanitarian China 
also supported the work of Wu Renhua, who documented the martial-law 
troops through careful research.
    One of the most important works of Humanitarian China was to bring 
Fang Zheng and his family to the San Francisco Bay area and assist him 
until he was able to make a living and support a family of 5 through 
his own work running an Airbnb and as an Uber driver. Fang Zheng lost 
his legs to the charging tank on the morning of June 4th while saving a 
female student from the tank attack.
    Now he is President of the Chinese Democracy Education Foundation 
and a leading witness to the brutal massacre. His smile and character 
embody the spirit of the Tiananmen Movement.
    Through our work at Humanitarian China, we have been intimately 
connected to every group who shares the memory and legacy of Tiananmen, 
including the Tiananmen Mothers, the citizens of Beijing who fought the 
invading troops to protect the students, the protesters in other cities 
who were persecuted more harshly than students in Beijing, and those 
who defied the CCP by openly commemorating Tiananmen . . . those 
Tiananmen protesters who persisted tirelessly for the freedom of China, 
like Liu Xiaobo.
    Thanks to this great country, we have been able to aid them and 
speak up for them; we can provide a sanctuary for the true heroes of 
China, like Fang Zheng and Zhao Changqing. We are also leading an 
effort to build a permanent museum for Tiananmen 1989 at Liberty 
Sculpture Park.
    China took a wrong path 30 years ago. The world allowed the regime 
that rolled tanks on its own people to exist and strengthened this 
regime through trade. Especially after China joined WTO while at the 
same time erecting a firewall to enslave Chinese in cyberspace, it has 
quickly become an existential threat to the world through globalization 
and digital totalitarianism. We face the ever-growing shadow of the CCP 
even in America.
    Together with a handful of protesters, I was beaten by supporters 
of the CCP's Olympic Torch relay on a San Francisco pier while the San 
Francisco police watched with folded arms, even when I pleaded for 
protection of our rights. My LinkedIn account was briefly censored 
because I was inconvenient for LinkedIn's China market. A scheduled 
press release of Humanitarian China in New York was canceled within an 
hour after I posted the event. Columbia University rejected our 
proposal to donate a Liu Xiaobo bust sculpture without consulting me 
even once. I am shunned in colleges, churches, book clubs, and industry 
organizations, as long as there is a whiff of Chinese connection. The 
situation gets worse year by year.
    But I believe this committee is in a unique position to push for 
some real changes that could have profound and persistent impact.
    (1) Insisting on the removal of the firewall as the precondition 
for any trade agreement. The existence of CCP's firewall is the biggest 
threat to the truth of Tiananmen 1989. The firewall is also the most 
important trade barrier that forces U.S. companies to kowtow to 
Beijing.
    (2) The Magnitsky Act could be a powerful tool against the 
perpetrators of the Tiananmen massacre and human rights violations. But 
so far only one name has been implicated by the State Department, out 
of dozens of perpetrators we provided them detailed information about. 
The most notorious one is Li Xiaolin, daughter of Li Peng, Butcher of 
Beijing. After the massacre, the families of Deng Xiaoping and Li Peng 
were both rewarded with ill-gotten wealth for the blood on their hands. 
Banning her from entering and freezing her family's assets will be a 
welcome step toward justice against the masterminds of the Tiananmen 
Massacre.
    (3) Liu Xiaobo bust sculpture on Capitol Hill. Thirty years ago, 
Liu Xiaobo flew back to China to participate in the Tiananmen protests, 
and eventually laid down his life for China. He was the second Nobel 
Peace Laureate to die under incarceration; the first was during 
Hitler's Nazi Germany. The world should be alarmed by the similar path 
of Xi Jinping. The CCP wants the world to forget Liu, even if his ashes 
could be found. Please help us preserve Liu Xiaobo's legacy by placing 
a bust sculpture on Capitol Hill. He belongs in the same place as his 
friend Vaclav Havel, who has a sculpture. A bust sculpture on Capitol 
Hill would demonstrate a commitment to the democratization of China and 
warm the hearts of the 1989 generation.
    (4) Act against CCP's peripheral organizations in the United 
States, for example, CSSA, on campus. When I had the opportunity to 
talk to Chinese students in U.S. universities about Tiananmen, their 
responses have been strongly positive and sympathetic. But it is 
extremely difficult for us to get such opportunities; the most 
important reason is the pervasive presence of CSSAs that monitor and 
organize the students on behalf of the Chinese Embassy. Targeting 
active individuals of CSSAs will be very effective. The Australian 
example of expelling Xiang Xiangmo set a good precedent to deal with 
such individuals.

                   Prepared Statement of Mi Ling Tsui
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                   Prepared Statement of Carl Minzner

    Members of Congress and staff, thank you very much for organizing 
this important hearing. It is an honor to be here.
    The late 1970s and 1980s saw Chinese leaders such as Deng Xiaoping 
steer China out of the economic stagnation, ideological isolation, and 
political chaos of the Maoist era and into the reform era.
    Ideologically and economically, China opened up. In Deng's famous 
words, ``It doesn't matter if a cat is black or white, as long as it 
catches mice, it is a good cat.'' Within the Chinese state and schools, 
that pragmatic attitude gave many citizens and officials latitude to 
import concepts and practices from abroad. The ideological fervor of 
the Mao era faded. Authorities backed out of people's daily lives. 
Religion came back. Churches, mosques, and temples reopened. And market 
reform gave citizens control over both their croplands and careers, 
helping fuel a decades-long boom.
    Politically, China began to stabilize. The 1980s saw Chinese 
leaders support the emergence of a range of partially institutionalized 
political norms in large part to address the chaos and instability they 
had personally experienced under Mao. These included:

    <bullet> Collective leadership, rather than single-man rule, as was 
the case under Mao.
    <bullet> Development of internal norms regarding the regular 
promotion, retirement, and succession of top Communist Party leaders.
    <bullet> Partial depoliticization of the bureaucracy, with Party 
authorities retreating from an effort to manage the day-to-day affairs 
of state and turning that responsibility over to technocrats within the 
bureaucracy.
    <bullet> Emergence of bottom-up input institutions--such as village 
elections--giving citizens a limited degree of voice into the political 
process and contributing to state legitimacy.

    Then came 1989. China's leaders were put to the test. Do you allow 
the forces that you yourselves unleashed begin to fundamentally reshape 
your political system? Or do you revert to Leninist one-party control. 
They chose the latter. On the streets, repression. So too within the 
Party. Reformers were cashiered; ideological controls reasserted. And 
the principle that one-party rule should never--ever--be called into 
question was reasserted loud and clear in internal political study 
sessions.
    China's reform era did not end in 1989. In the 1990s and early 
2000s, economic reform and social change continued to produce a host of 
private actors--such as commercial media (and later internet) outlets 
airing citizen grievances--that Beijing struggled to control. And many 
within the Party's own bureaucracy continued to experiment with 
governance reforms, such as administrative law reforms aimed at 
addressing corruption and abuse of power by local officials. Back in 
the early 2000s, one could imagine a world in which--even if real 
democratic reform was totally off the table--such innovations might 
allow the hard edges of China's political system to eventually be 
slowly sanded smooth.
    That did not happen. As each of those reforms was instituted, 
citizens rushed to use them. First to criticize local officials, and 
then to make deeper political claims. And at each point--whether 
village elections in the late 1990s, legal reforms around 2003, or a 
flourishing online discussion around 2010, Party leaders saw shades of 
1989 and moved to pull the rug out from under their own reforms, or 
reassert their grip over fields (such as the internet and social media) 
where they felt their control had slipped.
    In Beijing, Party officials like to think of their response in 1989 
and subsequent years as a successful antidote--saving China from the 
fate of the Soviet Union. But in reality, it has actually been a 
destructive virus. Beijing's reflexive desire to reassert Party control 
has mutated and is now spreading through the veins of China's political 
system--steadily undermining and destroying the potential that had been 
introduced in the early reform era.
    Economically, Beijing's push for control has led to a turn away 
from the market-oriented policies of the early reform era. Since the 
early 2000s, there has been a recommitment to industrial policy, a 
resurgence of state-owned enterprises (SOEs) and designated national 
champions. And the resulting policies--such as a massive increase in 
the share of bank lending going to SOEs--are slowly asphyxiating 
China's private sector.
    Ideologically, what limited space had opened up in China's reform 
era is steadily contracting. In field after field--whether media, law, 
or in civil society--controls have been ramped up to the tightest in 
decades. An ideological straitjacket is descending on university 
campuses, targeting both liberal professors espousing concepts of 
democracy and wildcat Marxist student groups promoting solidarity with 
the working class. Repression has also heightened with respect to 
religion. Draconian new controls have descended upon beliefs viewed as 
``foreign''--particularly in China's western region of Xinjiang, where 
about 10% of the Muslim Uighur population has been thrown (since 2017) 
into an extensive network of political re-education camps aimed at 
suppressing and remolding their ethnic and religious identity.
    And politically, the reform-era norms that the Party itself adopted 
have steadily broken one by one. Since Xi Jinping's accession to power 
in 2012, power has re-concentrated in the hands of a single leader. 
Elite retirement and succession norms were toppled in the wake of the 
2017 19th Party Congress, and China is swinging back toward an 
increasingly personalized single-man authoritarian rule, potentially 
for decades to come. Technocrats are being sidelined as Beijing 
reasserts the need for absolute Party leadership through state and 
society alike. And what limited space had once opened up in China's 
halls of power for honest discussion among officials themselves over 
the very real challenges facing China--such as how to address mounting 
debt, trade conflicts, or rising social tensions--is being choked off 
as a stifling blanket of silence and inertia, generated by the fear of 
falling on the wrong side of a rapidly changing political line, 
descends over China's bureaucracy.
    Naturally, all of this poses deep risks for China. Chinese leaders 
themselves launched China into the reform era as a response to the 
political turmoil of the Cultural Revolution and the excesses of the 
Maoist era. But today, you can see many of those practices beginning to 
push themselves--zombie-like--back to the surface again as the reform 
era steadily unwinds.
    And that is yet another tragedy of Tiananmen. Not only did hundreds 
or thousands die on the evening of June 3	4. Not only did 1989 close 
the door on a route for China's political system to gradually evolve 
into something better, but the decision that Party leaders took that 
year continues to reverberate and amplify to this day, dragging the 
country backward out of the reform era, and steadily increasing the 
risk that China will relive some of the worst periods of its own 
history.

                 Prepared Statement of Shanthi Kalathil
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

              Prepared Statement of Hon. James P. McGovern

    Good morning and welcome to a joint hearing of the Congressional-
Executive Commission on China and the Tom Lantos Human Rights 
Commission, hosted by the House Foreign Affairs Committee. I would like 
to thank Chairman Eliot Engel, Ranking Member Michael McCaul, and all 
the members of the Foreign Affairs Committee for hosting and 
participating in this important hearing.
    The title of today's hearing is ``Tiananmen at 30: Examining the 
Evolution of Repression in China.''
    The hearing will review the events in China in 1989, the 
aspirations of the ``Tiananmen generation,'' and the ongoing censorship 
and lack of accountability for those seeking answers about the victims 
of the massacre.
    It was 30 years ago this week that an estimated one million Chinese 
students, workers, and citizens joined the peaceful protests in 
Tiananmen Square and in over 400 cities throughout China.
    The people of China were calling for an open dialogue with 
government officials about:

    <bullet> the elimination of corruption;
    <bullet> the acceleration of economic and political reform; and
    <bullet> the protection of human rights, particularly the freedom 
of expression and assembly.

    We remember with sadness the crackdown that followed as the 
People's Liberation Army was unleashed on its own people. Some of you 
in this room were in Tiananmen Square on that day 30 years ago. We know 
you took great risks. We know you lost friends. And we know you have 
sacrificed so much in the years since to advance democracy and support 
the human rights and dignity of all people of China.
    One of the most inspiring images in history is the lone man 
standing in the street before the line of tanks on Tiananmen Square. We 
may never know the name and back story of ``The Tank Man,'' but his act 
of resistance symbolizes the spirit of Tiananmen that lives on in the 
hearts and minds of those continuing the struggle in China and abroad.
    In China, the Tiananmen Mothers is a group of relatives and friends 
of those killed in June 1989. At great risk to themselves, they 
continue to ask for the right to mourn publicly and call for a full, 
public, and independent accounting of the victims.
    Ding Zilin, the 82-year-old founder of the group, lost her 17-year-
old son that day. Chinese authorities reportedly have ``traveled'' 
Professor Ding outside of her home in Beijing to intimidate and silence 
her in advance of the 30th anniversary. Official surveillance never 
ends for her as she is followed by Chinese security officers every day. 
The government fears her memory, her devotion, and her moral standing. 
She describes the situation of Tiananmen mothers as ``white terror and 
suffocation.''
    In the years since Tiananmen, the human rights situation in China 
has worsened. Tiananmen was a key turning point as the country moved 
from the brink of openness and reform to new and evolving methods of 
repression, including against the Tibetan and Uyghur peoples.
    Some have described a ``slow motion Tiananmen happening in 
Xinjiang'' with the ongoing mass internment and surveillance of ethnic 
Uyghurs and other Turkic Muslims.
    A better path forward was offered by Nobel Peace Prize laureate and 
Tiananmen student leader Liu Xiaobo who co-authored Charter 08. 
Published on December 10, 2008, the 60th anniversary of the Universal 
Declaration of Human Rights, it called for constitutional government 
and respect for human rights. Despite official efforts to censor 
Charter 08, it was eventually signed by more than 10,000 people.
    Sadly, Liu Xiaobo spent nearly 16 years in prison and died in state 
custody in 2017. His eloquence and love for China lives on and inspires 
others to advocate for a system of government that no longer treats 
``words as crimes.''
    Today in China, the Tiananmen Square massacre is erased from 
history books and any mention of it is censored. Every year in the 
weeks preceding June 4th, the Chinese government tightens controls to 
prevent any mention of Tiananmen and heightens surveillance on the 
survivors, human rights advocates, and their families. But we know the 
spirit of Tiananmen is still alive and well. We know because China's 
leaders demonstrate their fear of it every day with their security 
cameras, censorship, detention centers, and obsession with preventing 
the people of China from learning the truth.
    We know the spirit of Tiananmen is alive and well in Hong Kong 
where hundreds of thousands of people come together in Victoria Park to 
hold a candlelight vigil for the victims of the Tiananmen Square 
Massacre.
    In his famous last statement, ``I Have No Enemies,'' Liu Xiaobo 
said: ``No force can block the thirst for freedom that lies within 
human nature, and some day China, too, will be a nation of laws where 
human rights are paramount.''
    I look forward to that day.
    This afternoon, shortly after this hearing, the U.S. House of 
Representatives will consider a resolution to remember the victims of 
the violent suppression of the democracy protests in Tiananmen Square 
and throughout China. The resolution calls on the Chinese government to 
respect the universally recognized human rights of all people living in 
China and around the world. I urge all of my colleagues in the House to 
support the resolution.
                                 ______
                                 

                 Prepared Statement of Hon. Marco Rubio

    I want to thank Chairman McGovern for convening this important 
Congressional-Executive Commission on China hearing on the 30th 
anniversary of the Tiananmen Square Massacre.
    I welcome our witnesses here today and look forward to your 
testimony, your firsthand recollections about the watershed events of 
1989, and your policy recommendations for Congress as we consider U.S. 
relations with China.
    Today's anniversary reminds us that the fundamental human yearning 
for dignity and basic rights is not limited to any one region or 
country. These aspirations transcend geography and culture.
    We must remember Tiananmen--not simply as a historical event but as 
a present and poignant reminder that when the Chinese people are free 
to assemble, to act, and to speak, they demand freedom, democracy, and 
political reform.
    Today we honor those whose lives were irrevocably altered by the 
events of that day. Those who perished, those who were imprisoned and 
tortured, those who lost mothers, fathers, sons and daughters, and 
those whose loved ones remain missing and unaccounted for. We remember 
the noble aspirations of the ``Tiananmen generation'' and we recommit 
ourselves to the struggle for freedom and human rights in China.
    Tiananmen must not be viewed exclusively through the lens of 
history. Rather, today we must also reckon with the ongoing systematic 
human rights abuses committed by the Chinese government and Communist 
Party against their own people.
    I know this has been covered, but I also want to take a brief 
moment to reflect on the events that led up to that fateful day of June 
4, 1989. In spring 1989, thousands of students gathered in the center 
of Beijing to mourn the death of Communist Party leader Hu Yaobang--a 
prominent reformer who sought to move China toward a more open and 
democratic political system.
    In the days that followed, thousands would gather in Tiananmen 
Square to call for greater freedom and political reform and to protest 
the repressive policies of China's Communist leaders. Their numbers 
grew as the days passed, not only in Beijing but also in 400 cities and 
universities across the nation until more than a million people--
including journalists, workers, government employees, and police--
joined the Tiananmen students and echoed their demands.
    Late in the evening of June 3rd and into June 4th, 1989, China's 
People's Liberation Army, acting on orders from the Chinese Communist 
Party leadership, responded with brute force and lethal violence, 
opening fire on peaceful demonstrators--including innocent civilians 
and students.
    To this day, the precise number of resulting casualties is unknown. 
There has been no public accounting of the events of that week and no 
justice for the victims. Rather, those seeking to commemorate the event 
or seek information about those killed, like the Tiananmen Mothers, are 
harassed, detained, and arrested.
    Perhaps the most iconic image associated with the Tiananmen 
massacre is the so-called ``tank man''--the small, solitary figure, 
with shopping bags in hand, who stood in the path of an advancing line 
of tanks.
    The ``tank man'' remains an enigma--his fate remains unknown. While 
some speculate that he was imprisoned, others believe he was executed. 
There are some who venture that he is alive today and unaware of his 
fame because of the Orwellian lengths to which the Chinese Communist 
government goes to censor the Internet and block all discussion of the 
events surrounding June 4, 1989.
    While the names of many of the Tiananmen protesters are now lost to 
history and to the Chinese government's Orwellian ``memory hole,'' the 
bravery of protesters in the face of certain danger leaves us in awe 
and reminds us that the principles of freedom, democracy, and self-rule 
are not only American principles. Rather, they are universal principles 
that neither tank treads, nor torture, nor terror, can ever erase from 
the face of the Earth. Indeed, the realization someday of these 
universal principles in China, I believe, still remains the quiet hope 
and aspiration of many people in that ancient and noble nation.
    The United States--and the nations of the free world--should demand 
that the Chinese government:

    <bullet> allow open discussion of the events of 1989;
    <bullet> end the enforced amnesia about the Tiananmen Square 
massacre--in China, online, and at Confucius Institutes that operate on 
college campuses globally, including in the U.S.;
    <bullet> unconditionally release those detained or imprisoned for 
attempting to commemorate the Tiananmen anniversary; and
    <bullet> reckon publicly with the horrific violence experienced by 
the Chinese people at the hands of the Party and the military.

    We must educate younger Americans about the true story of the 
Tiananmen Square massacre and the brave Chinese citizens who sacrificed 
their lives and futures in the hope of seeing a freer and democratic 
China.
    This last point is important because Tiananmen revealed to the 
world the true nature of the Chinese Communist Party. And yet for 
decades successive U.S. administrations have tried to pursue 
``constructive engagement'' with China.
    U.S. Presidents and policymakers wrongly assumed that trade, 
investment, and other engagement would eventually persuade Beijing to 
accept and embrace the international order, including respect for basic 
human rights. This optimism was misplaced.
    And now, under Xi Jinping, we see an increasingly aggressive 
Chinese Communist government that is more repressive in domestic 
politics, more mercantilist in trade and economic policy, increasingly 
dismissive of international norms, and more assertive in exporting 
their authoritarian model globally.
    While Chinese government-sponsored repression looks much different 
today than it did 30 years ago, the goal remains the same: to preserve 
the Communist Party's monopoly on domestic political power through 
state-sponsored indoctrination, mass surveillance, arbitrary detention, 
torture, and violence.
    The Communist Party is using technology to stay in power--whether 
via the emerging social credit systems or the vast digital surveillance 
state and its accompanying internment camps and to transform the 
religious and ethnic identities of millions of Uyghurs and other Muslim 
ethnic minorities in Xinjiang.
    Data-driven surveillance is facilitated by iris and body scanners, 
voice-pattern analyzers, and DNA sequencers and facial-recognition 
cameras in neighborhoods, on roads, and in train stations. This sounds 
like the stuff of science fiction movies, but it is real and is 
happening in China today.
    In the era of high-tech social control, there is a direct line of 
repression linking the ``tank man'' and the internment of over one 
million Uyghurs and other predominantly Muslim minorities in 
``political reeducation'' camps.
    And just over the weekend, Twitter--a global tech company that 
isn't even allowed to operate in China--suspended the accounts of 
reportedly more than 100 Chinese-language users critical of the 
government just ahead of the Tiananmen anniversary. We must keep 
American companies accountable for their potential complicity in 
Chinese-government censorship and other abuses.
    It is time that the United States lead the free world's democracies 
in holding the Chinese government accountable for its ongoing blatant 
repression of the Chinese people. We must take all steps to stop the 
Communist Chinese government's efforts to export their authoritarian 
model around the world.
    We must stand with the oppressed Tibetan Buddhist monk, the 
silenced human rights lawyer, the imprisoned Christian pastor, the 
disappeared Uyghur Muslim, the disillusioned Hong Kong democracy 
activist, and countless others living under the repressive policies of 
the Chinese government. To do anything less dishonors the spirit of 
Tiananmen. It tarnishes the memory of those lost and places us on the 
wrong side of history.
    With that, I look forward to hearing from our witnesses today, 
specifically about how the U.S. can support the people of China.

                 Prepared Statement of Hon. Chris Smith

    Thank you, Representative McGovern and Senator Rubio, for convening 
this joint hearing of the Congressional-Executive Commission on China 
and the Lantos Human Rights Commission. I have the privilege of serving 
on both Commissions and cannot think of a more auspicious day on which 
to hold a joint hearing.
    Thirty years ago, the world watched as over a million Chinese 
gathered to peacefully demand political reform and human rights. The 
hopes and promises of those heady days of 1989 ended needlessly with 
violence, tears, bloodshed, detention, and exile.
    Tiananmen Square has come to symbolize the persistent and brutal 
lengths to which the Chinese Communist Party will go to remain in 
power. Mothers lost sons, fathers lost daughters, and China lost an 
idealistic generation to the tanks that rolled down Tiananmen Square on 
June 4, 1989.
    We remember the Tiananmen massacre here in Congress each year 
because of its enduring impact on U.S.-China relations. We remember it 
because an unknown number of people died, were arrested, and/or exiled 
for simply seeking universally recognized freedoms. We remember this 
date each year because it is too important to forget and because it is 
too dangerous to commemorate in China.
    The legacy of Tiananmen was seared in my memory after I visited 
Beijing Prison No. 1 in 1991. I will never forget the faces of those 
gaunt Tiananmen prisoners, their heads shaved, in tattered clothes, and 
bent over machines working grueling hours on clothing for the U.S. and 
other markets.
    I will never forget that day. It fired my efforts, along with so 
many others in Congress--Frank Wolf and Speaker Pelosi among them--to 
fight against the fantasy that trade and investment would lead to 
political liberalization and human rights in China. It still fires my 
efforts to shine a light on repression in Xi Jinping's China.
    As documented so well by the CECC's Annual Report, the domestic 
screws on dissent have tightened considerably since Xi Jinping assumed 
the presidency. The scope of Mr. Xi's repression is immense, with more 
arbitrary detentions, censorship, torture, and social control now than 
at any time since 1989.
    President Xi and top Communist Party leaders regularly unleash 
bellicose attacks on ``universal values,'' ``Western ideals,'' and 
``revisionism of the Party's history.'' They have pushed through new 
laws that legitimize political, religious, and ethnic repression, 
further curtailing civil liberties and civil society, and expanding 
censorship of the Internet.
    Rights lawyers and labor organizers are tortured and jailed; Hong 
Kong booksellers and Chinese activists disappear from Thailand; citizen 
journalists and religious leaders are arbitrarily detained; even the 
family members of overseas journalists--like the brave members of Radio 
Free Asia's Uyghur Service--are jailed to silence their critical 
reporting.
    Impunity and repression are the ties that bind the Tiananmen 
massacre and the internment of over a million Uyghurs and other Turkic 
Muslims--in what can only be called concentration camps.
    The U.S. cannot be neutral when human rights are trampled with 
impunity or when crimes against humanity are being committed as we 
speak. Either you stand with the ``Tank Man'' or you stand with the 
tank. There is no middle ground. This is why the CECC has pressed the 
Administration hard to hold accountable those Chinese officials and 
businesses complicit in the most egregious human rights violations in 
China.
    Strong rhetoric condemning crimes against humanity occurring in 
Xinjiang is not enough at this point. Those who abuse universal 
freedoms with impunity should not prosper from access to the United 
States and our economic or political freedom. It is the least the U.S. 
can do to show leadership in a world where Chinese cash increasingly 
buys silence.
    In the long run, we must completely rethink how our values and 
interests coincide when it comes to China. Senator Rubio and I have 
tried to do this over the last four years as CECC Chairs. I'm sure it 
will continue under the leadership of Representative McGovern.
    We can no longer afford to separate human rights from our other 
interests. The health of the U.S. economy and environment, the safety 
of our food and drug supplies, the security of our investments and 
personal information in cyberspace, and the stability of the Pacific 
region will depend on China complying with international law, allowing 
the free flow of news and information, and the development of an 
independent judiciary and civil society.
    In other words, human rights and the rule of law matter. The memory 
of Tiananmen matters.
    While the hopes of the Tiananmen Square demonstrators have not yet 
been realized, the demands for universal freedom and political reform 
continue to inspire the Chinese people today.
    I believe that someday China will be free. Someday, the people of 
China will be able to enjoy all their God-given rights. And a nation of 
free Chinese men and women will honor and celebrate the heroes of 
Tiananmen Square and all those who sacrificed so much, and so long, for 
freedom.

                       Submissions for the Record

                              ----------                              

               ``i have no enemies: my final statement''

     [By Liu Xiaobo; Nobel Lecture in Absentia, December 10, 2010]

                     Submitted by Hon. Chris Smith

    In the course of my life, for more than half a century, June 1989 
was the major turning point. Up to that point, I was a member of the 
first class to enter university when college entrance examinations were 
reinstated following the Cultural Revolution (Class of '77). From BA to 
MA and on to PhD, my academic career was all smooth sailing. Upon 
receiving my degrees, I stayed on to teach at Beijing Normal 
University. As a teacher, I was well received by the students. At the 
same time, I was a public intellectual, writing articles and books that 
created quite a stir during the 1980s, frequently receiving invitations 
to give talks around the country, and going abroad as a visiting 
scholar upon invitation from Europe and America. What I demanded of 
myself was this: whether as a person or as a writer, I would lead a 
life of honesty, responsibility, and dignity. After that, because I had 
returned from the U.S. to take part in the 1989 Movement, I was thrown 
into prison for ``the crime of counter-revolutionary propaganda and 
incitement.'' I also lost my beloved lectern and could no longer 
publish essays or give talks in China. Merely for publishing different 
political views and taking part in a peaceful democracy movement, a 
teacher lost his lectern, a writer lost his right to publish, and a 
public intellectual lost the opportunity to give talks publicly. This 
is a tragedy, both for me personally and for a China that has already 
seen thirty years of Reform and Opening Up.
    When I think about it, my most dramatic experiences after June 
Fourth have been, surprisingly, associated with courts: My two 
opportunities to address the public have both been provided by trial 
sessions at the Beijing Municipal Intermediate People's Court, once in 
January 1991, and again today. Although the crimes I have been charged 
with on the two occasions are different in name, their real substance 
is basically the same--both are speech crimes.
    Twenty years have passed, but the ghosts of June Fourth have not 
yet been laid to rest. Upon release from Qincheng Prison in 1991, I, 
who had been led onto the path of political dissent by the 
psychological chains of June Fourth, lost the right to speak publicly 
in my own country and could only speak through the foreign media. 
Because of this, I was subjected to year-round monitoring, kept under 
residential surveillance (May 1995 to January 1996) and sent to 
Reeducation-Through-Labor (October 1996 to October 1999). And now I 
have been once again shoved into the dock by the enemy mentality of the 
regime. But I still want to say to this regime, which is depriving me 
of my freedom, that I stand by the convictions I expressed in my ``June 
Second Hunger Strike Declaration'' twenty years ago--I have no enemies 
and no hatred.
    None of the police who monitored, arrested, and interrogated me, 
none of the prosecutors who indicted me, and none of the judges who 
judged me are my enemies. Although there is no way I can accept your 
monitoring, arrests, indictments, and verdicts, I respect your 
professions and your integrity, including those of the two prosecutors, 
Zhang Rongge and Pan Xueqing, who are now bringing charges against me 
on behalf of the prosecution. During interrogation on December 3, I 
could sense your respect and your good faith.
    Hatred can rot away at a person's intelligence and conscience. 
Enemy mentality will poison the spirit of a nation, incite cruel mortal 
struggles, destroy a society's tolerance and humanity, and hinder a 
nation's progress toward freedom and democracy. That is why I hope to 
be able to transcend my personal experiences as I look upon our 
nation's development and social change, to counter the regime's 
hostility with utmost goodwill, and to dispel hatred with love.
    Everyone knows that it was Reform and Opening Up that brought about 
our country's development and social change. In my view, Reform and 
Opening Up began with the abandonment of the ``using class struggle as 
guiding principle'' government policy of the Mao era and, in its place, 
a commitment to economic development and social harmony. The process of 
abandoning the ``philosophy of struggle'' was also a process of gradual 
weakening of the enemy mentality and elimination of the psychology of 
hatred, and a process of squeezing out the ``wolf's milk'' that had 
seeped into human nature.
    It was this process that provided a relaxed climate, at home and 
abroad, for Reform and Opening Up, gentle and humane grounds for 
restoring mutual affection among people and peaceful coexistence among 
those with different interests and values, thereby providing 
encouragement in keeping with humanity for the bursting forth of 
creativity and the restoration of compassion among our countrymen. One 
could say that relinquishing the ``anti-imperialist and anti-
revisionist'' stance in foreign relations and ``class struggle'' at 
home has been the basic premise that has enabled Reform and Opening Up 
to continue to this very day.
    The market trend in the economy, the diversification of culture, 
and the gradual shift in social order toward the rule of law have all 
benefitted from the weakening of the ``enemy mentality.'' Even in the 
political arena, where progress is slowest, the weakening of the enemy 
mentality has led to an ever-growing tolerance for social pluralism on 
the part of the regime and a substantial decrease in the force of 
persecution of political dissidents, and the official designation of 
the 1989 Movement has also been changed from ``turmoil and riot'' to 
``political disturbance.'' The weakening of the enemy mentality has 
paved the way for the regime to gradually accept the universality of 
human rights. In [1997 and] 1998 the Chinese government made a 
commitment to sign two major United Nations international human rights 
covenants, signaling China's acceptance of universal human rights 
standards.
    In 2004, the National People's Congress (NPC) amended the 
Constitution, writing into the Constitution for the first time that 
``the state respects and guarantees human rights,'' signaling that 
human rights have already become one of the fundamental principles of 
China's rule of law. At the same time, the current regime puts forth 
the ideas of ``putting people first'' and ``creating a harmonious 
society,'' signaling progress in the CPC's concept of rule.
    I have also been able to feel this progress on the macro level 
through my own personal experience since my arrest.
    Although I continue to maintain that I am innocent and that the 
charges against me are unconstitutional, during the one plus year since 
I have lost my freedom, I have been locked up at two different 
locations and gone through four pretrial police interrogators, three 
prosecutors, and two judges, but in handling my case, they have not 
been disrespectful, overstepped time limitations, or tried to force a 
confession. Their manner has been moderate and reasonable; moreover, 
they have often shown goodwill. On June 23, I was moved from a location 
where I was kept under residential surveillance to the Beijing 
Municipal Public Security Bureau's No. 1 Detention Center, known as 
``Beikan.'' During my six months at Beikan, I saw improvements in 
prison management.
    In 1996, I spent time at the old Beikan (located at Banbuqiao). 
Compared to the old Beikan of more than a decade ago, the present 
Beikan is a huge improvement, both in terms of the ``hardware''--the 
facilities--and the ``software''--the management. In particular, the 
humane management pioneered by the new Beikan, based on respect for the 
rights and integrity of detainees, has brought flexible management to 
bear on every aspect of the behavior of the correctional staff, and has 
found expression in the ``comforting broadcasts,'' Repentance magazine, 
and music before meals, on waking and at bedtime.
    This style of management allows detainees to experience a sense of 
dignity and warmth and stirs their consciousness in maintaining prison 
order and opposing the bullies among inmates. Not only has it provided 
a humane living environment for detainees, it has also greatly improved 
the environment for their litigation to take place and their state of 
mind. I've had close contact with correctional officer Liu Zheng, who 
has been in charge of me in my cell, and his respect and care for 
detainees could be seen in every detail of his work, permeating his 
every word and deed, and giving one a warm feeling. It was perhaps my 
good fortune to have gotten to know this sincere, honest, 
conscientious, and kind correctional officer during my time at Beikan.
    It is precisely because of such convictions and personal experience 
that I firmly believe that China's political progress will not stop, 
and I, filled with optimism, look forward to the advent of a future 
free China.
    For there is no force that can put an end to the human quest for 
freedom, and China will in the end become a nation ruled by law, where 
human rights reign supreme. I also hope that this sort of progress can 
be reflected in this trial as I await the impartial ruling of the 
collegial bench--a ruling that will withstand the test of history.
    If I may be permitted to say so, the most fortunate experience of 
these past twenty years has been the selfless love I have received from 
my wife, Liu Xia. She could not be present as an observer in court 
today, but I still want to say to you, my dear, that I firmly believe 
your love for me will remain the same as it has always been. Throughout 
all these years that I have lived without freedom, our love was full of 
bitterness imposed by outside circumstances, but as I savor its 
aftertaste, it remains boundless. I am serving my sentence in a 
tangible prison, while you wait in the intangible prison of the heart. 
Your love is the sunlight that leaps over high walls and penetrates the 
iron bars of my prison window, stroking every inch of my skin, warming 
every cell of my body, allowing me to always keep peace, openness, and 
brightness in my heart, and filling every minute of my time in prison 
with meaning. My love for you, on the other hand, is so full of remorse 
and regret that it at times makes me stagger under its weight. I am an 
insensate stone in the wilderness, whipped by fierce wind and 
torrential rain, so cold that no one dares touch me. But my love is 
solid and sharp, capable of piercing through any obstacle. Even if I 
were crushed into powder, I would still use my ashes to embrace you.
    My dear, with your love I can calmly face my impending trial, 
having no regrets about the choices I've made and optimistically 
awaiting tomorrow. I look forward to [the day] when my country is a 
land with freedom of expression, where the speech of every citizen will 
be treated equally well; where different values, ideas, beliefs, and 
political views . . . can both compete with each other and peacefully 
coexist; where both majority and minority views will be equally 
guaranteed, and where the political views that differ from those 
currently in power, in particular, will be fully respected and 
protected; where all political views will spread out under the sun for 
people to choose from, where every citizen can state political views 
without fear, and where no one can under any circumstances suffer 
political persecution for voicing divergent political views. I hope 
that I will be the last victim of China's endless literary inquisitions 
and that from now on no one will be incriminated because of speech.
    Freedom of expression is the foundation of human rights, the source 
of humanity, and the mother of truth. To strangle freedom of speech is 
to trample on human rights, stifle humanity, and suppress truth.
    In order to exercise the right to freedom of speech conferred by 
the Constitution, one should fulfill the social responsibility of a 
Chinese citizen. There is nothing criminal in anything I have done. 
[But] if charges are brought against me because of this, I have no 
complaints.
    Thank you, everyone.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                          Witness Biographies

    Nancy Pelosi, Speaker of the House

     Democratic Leader Nancy Pelosi has been one of Congress's 
strongest champions for democracy and human rights in China and Tibet. 
Days after the Tiananmen Square massacre in 1989, Pelosi introduced the 
Emergency Chinese Immigration Relief Act to help Chinese citizens 
seeking asylum in the United States. Two years later, while the Chinese 
government continued its censorship and brutal suppression of the 
memory of that tragedy, Pelosi joined a bipartisan human rights 
delegation to Beijing. After eluding their official handlers, Pelosi 
and other Members of Congress went to Tiananmen Square, where they 
unfurled a banner that read ``To Those Who Died for Democracy in 
China'' and laid silk flowers on the Monument to the People's Heroes in 
honor of the democracy activists. In 2009, Pelosi hand delivered a 
letter to Chinese President Hu Jintao calling for the release of 
political prisoners. When Chinese democracy advocate Liu Xiaobo, a 
political prisoner, was awarded the Nobel Peace Prize in 2010, Pelosi 
attended the Nobel Peace Prize in-absentia ceremony to celebrate his 
courage and bring attention to his imprisonment. In 1998, Pelosi, as 
cochair of the Congressional Working Group on China, opposed the 
Clinton Administration by leading bipartisan opposition to normal trade 
relations with China. Pelosi proposed legislation that would connect 
China's Most-Favored-Nation status with its human rights record and 
commitment to removing trade barriers that bar U.S. products from its 
markets. Shortly after becoming a Member of Congress, Pelosi met the 
Dalai Lama in 1987, beginning a decades-long friendship with the 
Tibetan spiritual leader. In 2007, Speaker Pelosi presented the Dalai 
Lama with the Congressional Gold Medal in a ceremony attended by 
President George W. Bush. The following year, Speaker Pelosi became the 
highest-ranking U.S. official to meet with the Dalai Lama in 
Dharamsala. In November 2015, Leader Pelosi led the first U.S. 
Congressional Delegation to Tibet since the 2008 demonstrations and 
violence, where the delegation was able to speak with Tibetan 
university students and meet with key Chinese officials.

    Wu'er Kaixi, Tiananmen student leader and Chairman, Taiwan 
Association for Democracy Advancement in China

    Wu'er Kaixi was one of the student leaders who initiated a movement 
in Beijing asking for democracy and freedom that galvanized the world 
in April 1989. The series of ensuing protests across the nation was 
brutally ended by the Chinese government on June 4, 1989, when top 
Chinese Communist leaders ordered the use of military force to suppress 
the peaceful protesters. After the massacre, Wu'er Kaixi was listed as 
one of China's most-wanted student leaders, but he managed to escape to 
France via Hong Kong with the help of those sympathetic to the student 
movement. Wu'er Kaixi now lives in Taiwan, where he continues his 
endeavor of democracy as chairman of the Taiwan Association for 
Democracy Advancement in China. Through his magazine and newspaper 
columns and regular television appearances, he has become a prominent 
political commentator and social activist. As a Uyghur national, Wu'er 
Kaixi is a vocal critic of the Chinese government's human rights abuses 
in Xinjiang. He has served as a member of the emeritus board of 
Reporters Without Borders and as General Secretary of the Taiwan 
Association of Columnists and Editorialists, and is Senior Research 
Fellow at the Taiwan Institute for Political Economics and Strategy 
Studies.

    Zhou Fengsuo, Tiananmen student leader and co-founder and 
President, Humanitarian China

    Zhou Fengsuo co-founded Humanitarian China in 2007 to promote the 
rule of law, human rights, and freedom of expression in China and to 
provide humanitarian support to political prisoners and their families. 
In 1989, Zhou was a physics student at Tsinghua University in Beijing. 
He started the Voice of Student Movement radio station and organized 
demonstrations that demanded democratic reform. During the protests, 
Zhou and other students set up a broadcast station on Tiananmen Square 
and provided support and medical help to students who were on hunger 
strike. About a week after the massacre, authorities took Zhou into 
custody at his home in Xi'an municipality, Shaanxi province, and 
detained him for a year without trial. Zhou came to the United States 
in 1995 and continued his advocacy work. Although Zhou was wanted by 
Chinese authorities, he returned to China several times. In 2014, he 
went to a detention center in Beijing trying to give money to several 
political prisoners, but authorities denied his request and 
subsequently returned him to the U.S. after subjecting him to 18 hours 
of interrogation.
    Mi Ling Tsui, Communications Director, Human Rights in China

    Mi Ling Tsui is the Communications Director of Human Rights in 
China (HRIC), a Chinese non-governmental organization founded in March 
1989 by overseas Chinese students and scientists. With offices in New 
York and Hong Kong, HRIC aims at supporting Chinese civil society 
actors in pressing for the institutional protection of human rights 
guaranteed under international law. Tsui is the lead on HRIC's 
``Unforgotten'' project--a series of profiles that tell the stories of 
those killed in the military crackdown on the 1989 Democracy Movement 
in China. The project is aimed at broadening the international reach of 
the Tiananmen Mothers' documentation work on June Fourth victims and 
supporting the group's demand for justice. Before joining HRIC, Tsui 
was a documentary producer with 20 years of experience in U.S. network 
and public television. Many of her projects were China- and Asia-
related, including ``Becoming American: The Chinese Experience,'' a 
three-part PBS Bill Moyers series on the history of Chinese in the U.S.

    Carl Minzner, Professor of Law, Fordham University

    Carl Minzner is an expert in Chinese law and governance. He has 
written extensively on these topics in both academic journals and the 
popular press, including op-eds appearing in the New York Times, Wall 
Street Journal, Los Angeles Times, and Christian Science Monitor. He is 
the author of ``End of an Era: How China's Authoritarian Revival is 
Undermining Its Rise'' (Oxford University Press, 2018). Prior to 
joining Fordham, he was an Associate Professor of Law at Washington 
University in St. Louis. In addition, he has served as Senior Counsel 
for the Congressional-Executive Commission on China, International 
Affairs Fellow for the Council on Foreign Relations, and Yale-China 
Legal Education Fellow at the Northwest Institute of Politics and Law 
in Xi'an, China.

    Shanthi Kalathil, Director, International Forum for Democratic 
Studies, National Endowment for Democracy

    Shanthi Kalathil is Director of the International Forum for 
Democratic Studies at the National Endowment for Democracy. Previously 
a Senior Democracy Fellow at the U.S. Agency for International 
Development and a regular consultant for the World Bank, the Aspen 
Institute, and others, she has written or edited numerous policy and 
scholarly publications. She co-authored ``Open Networks, Closed 
Regimes: The Impact of the Internet on Authoritarian Rule,'' a widely 
cited work that examined the Internet and authoritarian regimes. She is 
a former Hong Kong-based staff reporter for the Wall Street Journal 
Asia. She lectures on international relations in the information age at 
Georgetown University. She received a B.A. in Communications from the 
University of California at Berkeley and an M.Sc. in Comparative 
Politics from the London School of Economics and Political Science.
          

                                 [all]
</pre></body></html>
